<html>
<title> - PROTECTING THE RIGHT TO VOTE: BEST AND WORST PRACTICES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                     PROTECTING THE RIGHT TO VOTE:
                        BEST AND WORST PRACTICES

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON CIVIL RIGHTS
                          AND CIVIL LIBERTIES

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 1, 2019

                               __________

                           Serial No. 116-018

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


        Available via the World Wide Web: http://www.govinfo.gov
                     http://www.house.oversight.gov
                       http://www.docs.house.gov
                       
                       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-640 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="daaab59ab9afa9aeb2bfb6aaf4b9b5b7f4">[email&#160;protected]</a>                               
                       
                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Justin Amash, Michigan
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
Candyce Phoenix, Subcommittee on Civil Rights and Civil Liberties Staff 
                                Director
   Valerie Shen, Subcommittee Chief Counsel and Senior Policy Advisor
                     Joshua Zucker, Assistant Clerk
               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051

            Subcommittee on Civil Rights and Civil Liberties

                    Jamie Raskin, Maryland, Chairman
Carolyn Maloney, New York            Chip Roy, Texas, Ranking Minority 
Wm. Lacy Clay, Missouri                  Member
Debbie Wasserman Schultz, Florida    Justin Amash, Michigan
Robin Kelly, Illinois                Thomas Massie, Kentucky
Jimmy Gomez, California              Mark Meadows, North Carolina
Alexandria Ocasio-Cortez, New York   Jody Hice, Georgia
Eleanor Holmes Norton, District of   Michael Cloud, Texas
    Columbia                         Carol D. Miller, West Virginia
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page

Hearing held on May 1, 2019......................................     1

                               Witnesses

Ms. Myrna Perez, Deputy Director, Democracy Program, Brennan 
  Center for Justice
    Oral statement...............................................     6
Ms. Leigh Chapman, Director, Voting Rights Program, The 
  Leadership Conference on Civil and Human Rights
    Oral statement...............................................     8

Mr. Dale Ho, Director, Voting Rights Project, American Civil 
  Liberties Union
    Oral statement...............................................    10

Ms. Kaylan Phillips, Litigation Counsel, Public Interest Legal 
  Foundation
    Oral statement...............................................    11

The written statements for witnesses are available at: https://
  docs.house.gov.

                           Index of Documents

The documents listed below are available at: https://
  docs.house.gov.
* ``A Sampling of Election Fraud Cases From Across the Country'', 
  a study conducted by the Heritage Foundation; submitted by Mr. 
  Roy
* ``Texas Woman Sentenced to 5 Years in Prison for Voting 
  Illegally in the 2016 Election'', article; submitted by Mr. 
  Cloud
* ``Robstown Residents Indicated on Multiple Counts of Voter 
  Fraud'' ; submitted by Mr. Cloud
* ``Ten Oregon Voters Plead Guilty to Voter Fraud in 2016 
  Presidential Election''; submitted by Mr. Cloud
* ``Texas Court Upholds Conviction of Woman Sentenced to 8 Years 
  in Prison for Voter Fraud;'' submitted by Mr. Cloud
* ``James City Man Indicted on Voter Fraud Charges;'' submitted 
  by Mr. Cloud
* ``Edinburg Mayor, Wife Latest to be Charged with Illegal 
  Voting;'' submitted by Mr. Cloud
* ``Elmwood Park Mayor Charged with Voter Fraud Resigns;'' 
  submitted by Mr. Cloud
* ``Salvadoran National Indicted on Immigration and Voter Fraud 
  Violations in East Texas;'' submitted by Mr. Cloud
* ``Campaign Manager Charged with Buying Votes in Donna, Texas, 
  School Board Election;'' submitted by Mr. Cloud
* ``Two Campaign Workers Admitted to Buying Votes in Hidalgo 
  County, Texas, Elections;'' submitted by Mr. Cloud
* ``Mexican National Who Took Cousin's Identity to Vote Illegally 
  to be Deported;'' submitted by Mr. Cloud
* ``Presentation to Presidential Advisory Commission on Election 
  Integrity: A Suggestion and Some Evidence'' by John R. Lott 
  Jr., CrimePreventionResearchCenter.org; submitted by Mr. Massie
* John R. Lott, ``Commentary: Apply Background Checks for Gun 
  Purchases to Voting;'' submitted by Mr. Massie

 
                     PROTECTING THE RIGHT TO VOTE:
                        BEST AND WORST PRACTICES

                              ----------                              


                         Wednesday, May 1, 2019

                  House of Representatives,
  Subcommittee on Civil Rights and Civil Liberties,
                         Committee on Oversight and Reform,
                                                   Washington, D.C.

    The committee met, pursuant to notice, at 2:35 p.m., in 
room 2154, Rayburn House Office Building, Hon. Jamie Raskin 
(chairman of the committee) presiding.
    Present: Representatives Raskin, Maloney, Clay, Wasserman 
Schultz, Kelly, Gomez, Ocasio-Cortez, Pressley, Norton, Roy, 
Jordan, Amash, Gosar, Massie, Hice, Cloud, and Miller.
    Mr. Raskin. Good afternoon, everyone, and welcome to 
meeting of the hearing--or rather, the hearing of the 
Subcommittee on Civil Rights and Civil Liberties of the 
Committee on Oversight and Reform.
    The title of our hearing today is ``Protecting the Right to 
Vote: Best and Worst Practices.'' I welcome our esteemed panel 
to today's hearing and salute all of my colleagues.
    I am going to make my opening statement, and then I am 
going to turn it over to Mr. Roy, and then we will go to the 
opening statements of all of our witnesses.
    A great Republican President once spoke of government of 
the people, by the people, and for the people, and this has 
been the tantalizing ideal of America. But of course, it has 
not always been like this here.
    We began as a slave republic of white male property owners 
over the age of 21, and it has only been through waves of 
profound social and political struggle that we have opened 
America up to change and to inclusion. This is the story of the 
Thirteenth Amendment, which abolished slavery; the Fourteenth 
Amendment, which gave us equal protection and due process; the 
Fifteenth Amendment, which ended discrimination in voting based 
on race; the Seventeenth Amendment, which shifted the mode of 
election of U.S. Senators from the state legislatures to the 
people; the Nineteenth Amendment, 99 years ago, which gave us 
women's suffrage; the Twenty-Third Amendment, which gave people 
here in Washington, DC, the right to participate in 
Presidential elections; the Twenty-Fourth Amendment, which 
abolished poll taxes in Federal elections; and the Twenty-Sixth 
Amendment, which lowered the voting age to 18.
    This is also the story of the Civil Rights Act of 1964 and 
the Voting Rights Act of 1965.
    Voting in American life has had both an ideal history and a 
real history. There is no more celebrated ideal than that of 
voting rights for all. But in reality, there have been constant 
efforts to lock people out of the franchise and to keep them 
from participating. We must not forget the blood, sweat, and 
tears that have been shed in the struggle to win the right to 
vote for everyone.
    I have a hero named Bob Moses who went South at age 26-
years-old in 1960, a philosophy graduate student at Harvard. He 
traveled to Mississippi, where he found that less than one 
percent of African Americans in that state were registered to 
vote. Less than one percent of African Americans were 
registered. Nearly all had been disenfranchised by intimidation 
and violence, character and literacy tests administered at the 
polls, poll taxes, grandfather clauses, and so on.
    Moses likened the situation when he got there to the Iron 
Curtain in Europe, behind which millions of Eastern Europeans 
lived under the boot of the Soviet Union. Mississippi and the 
Deep South, he said, were behind a cotton curtain where no one 
dared challenge the racist sheriffs and bosses who controlled 
every aspect of social, economic, and political life.
    These sheriffs and bosses, we must remember, were 
Democrats, and we must never forget that both parties can and 
have participated in disenfranchisement schemes. Yesterday, it 
was mostly Democrats. Today, it is mostly Republicans.
    Originally, Bob Moses went to Mississippi thinking that he 
would participate in sit-ins. He had seen the pictures of the 
solemn teenage protesters in newspapers, and he later wrote of 
his response that, ``These young people looked the way that I 
felt.''
    But segregation in public accommodations was not the heart 
of the problem he found when he got to Mississippi. The heart 
of it was disenfranchisement of the black community. This was 
the lock on the door of the whole system of Jim Crow.
    And while many imagine that the sit-ins were somehow more 
radical than registering people to vote, Moses observed that he 
was living in a two-thirds African-American congressional 
district where virtually none of the black people could vote. 
The most radical solution to the problem of structural racism 
in the sense of going to the root of the problem, he said, 
would be a campaign to challenge the disenfranchisement of the 
black community and to work--to go door-to-door--to register 
people to vote.
    And that is what he did. It was terrifying and dangerous 
work. He was beaten nearly to his death more than once, just 
trying to enter the county building to register people to vote.
    But in the process of this struggle, Bob Moses and his 
friends in SNCC woke up the black community, stirred the 
conscience of young people across America, and shook racist 
America to the core. They coined a term that would transform 
not just Mississippi, but American law and politics forever. 
``One person, one vote.''
    Today, the gains of the modern Civil Rights Movement, which 
many historians call the ``Second Reconstruction,'' are under 
severe attack. A 5-4 decision of the Supreme Court in 2013 in 
Shelby County v. Holder invalidated the coverage formula of the 
Voting Rights Act in Section 4, effectively destroying the 
Section 5 preclearance requirement and setting us back decades 
in the law of voting rights.
    With the Voting Rights Act intact, jurisdictions with a 
discriminatory history had to submit proposed changes, like 
voter purges, polling place closures, and reduced voter 
registration hours, to the Department of Justice or to the 
United States District Court for the District of Columbia 
before they could go through. Now this check is gone, and 
people experiencing suffrage restrictions and obstacles must go 
and find a lawyer and go to court and hope that they can 
convince a judge to intervene to make a change under Section 2.
    So six years after that decision, hundreds of polling 
places have been closed across the land. Millions of voters 
have been purged from the rolls. Early voting has been cut back 
sharply in a number of states, and strict voter ID laws have 
gone into effect in many jurisdictions. Virtually all of these 
restrictions have been in Republican states.
    Proponents of the new voting obstacle course say that they 
are just trying to prevent voter fraud. We often hear from the 
President about the threat of rampant illegal voting, but study 
after study has failed to reveal any significant evidence of 
voter fraud at all, at least the kind they are talking about.
    One comprehensive study conducted at Loyola Law School 
examined more than 1 billion votes cast between 2000 and 2014 
and revealed only 31 credible instances of voter fraud, 31 out 
of 1 billion, less than 1/100th of 1 percent. The way that you 
steal elections in America, everyone knows, is you run 
elections in America, and you run them in a way that closes out 
substantial parts of the electorate.
    Now the good news is that just as there is a strong push to 
eliminate voting opportunities and rights in certain states, 
there is a powerful recognition across the land that voting is 
the essential foundation of democratic power and citizenship 
and that we should be securing and expanding the right of the 
people to vote however we can.
    So, today, we're going to showcase both some of the best 
practices in protecting the vote along with the worst practices 
canceling out voter rights and opportunities. And on the good 
side, we have found automatic voter registration where eligible 
voters were added to the rolls unless they choose to top out of 
it, which can dramatically increase the number of registered 
citizens.
    We have also found Election Day registration, which offers 
a crucial backstop for voters who may be stripped of their 
registration without their knowledge or just still learning 
about the process. And we have also found early voting and 
absentee voting policies, which offer flexibility to busy 
working Americans who could not otherwise make it to the polls, 
and we are going to hear about these from expert witnesses.
    In the 2016 Presidential election, only 58 percent of 
eligible voters cast a ballot. Less than half of eligible 
citizens voted in 2018. We can do a lot better as a society by 
enlarging the opportunities for voting, rather than restricting 
them.
    Eventually, I think--and we will talk about this another 
time--we will need a constitutional amendment guaranteeing the 
right of every citizen to vote, a point our Constitution is 
very ambiguous on, unlike constitutions around the world, which 
have put this front and center. But in the meantime, let us act 
however we can at both the state and Federal level to protect 
the voting rights of the people.
    I thank the witnesses today for being here to help us 
through this process. And now I am happy to recognize my 
distinguished colleague, Mr. Roy, the ranking member of the 
committee.
    Mr. Roy. Well, I thank the chairman, and I thank the 
witnesses for taking time out of your busy schedules to come 
here and address the committee on such an important issue. I am 
blessed and fortunate to represent the good people of the 21st 
congressional District of Texas in the Hill Country between 
Austin and San Antonio, home to President Lyndon Johnson, who 
obviously was fairly significant in making sure that we got the 
Voting Rights Act passed in 1965. The Civil Rights Act 
obviously in 1964, but for the purpose of this hearing, the 
1965 Voting Rights Act was critical in ensuring that those who 
wish to partake in our republic, have a voice in the republic, 
are not left out of the system through clear, invidious 
discrimination practices that try to keep people away from the 
polls.
    That was a seminal moment in our Nation's history, and I am 
proud to represent the district in which President Johnson grew 
up, went to college, ultimately became President, and engaged 
in making sure that we got that passed. Mindfully that he was a 
Democrat at a time when he needed to get Republican support in 
order to get that across the finish line, now 54-odd years ago.
    As relates to this hearing, I would be remiss, however, in 
responding to a few points that were just made that I tend to 
look at the words of Chief Justice Roberts when he pointed out 
in I don't know if it was Shelby or one of the other cases 
around the time, and I forget when it was, but that this 
divvying us up by race is a sordid business. And it is a sordid 
business.
    I think that the Chief Justice was correct in the ruling in 
Shelby, and I think that it is correct that the Voting Rights 
Act preclearance requirement that that case addressed, being 
based wrongly on at that time 40-plus-year-old data, 1968 
data--in some cases, 1972 data--the Court was right in saying 
that that was wrong. And there is not a whole lot of 
disagreement in the extent to which that the formula and that 
the way the Voting Rights Act was being applied and its 
reauthorization in 2006 was based on old data.
    And I think that is a very important consideration when you 
think about what the Court--why the Court reached the judgment 
that it reached. So here we are today talking about the current 
state of elections and practices, and I, of course, represent 
the state of Texas.
    Article I, Section 4 of the Constitution gives states the 
authority to determine the times, place, and manner of holding 
elections. Despite this constitutional authority, the majority 
wishes to exert more Federal bureaucracy over each state's 
authority over local elections. We have seen this H.R. 1. When 
we start a Congress, each party usually picks what is their 
most important issue they want to address and highlight, and 
H.R. 1 was, of course, dealing with our election systems and a 
number of other things related to that--campaigning, campaign 
finance.
    H.R. 1 would take significant amounts of the decisionmaking 
of how we apply and how we exercise our voting from the state 
and move it to the Federal level. I believe that voting is 
integral to each American's connection to his or her community. 
Someone from Blanco, Texas, which I am proud to represent, 
doesn't get to tell someone from San Francisco who to live or 
who to elect as the town dog catcher any more than someone from 
Baltimore gets to dictate which local judges should be elected 
in San Antonio.
    In fact, as my colleague knows, Maryland does not elect 
state judges. We do in Texas. There are numerous differences 
from state to state, region to region, and we should embrace 
those differences as part of our common American experience and 
make sure that we are able to embrace those and agree to 
disagree, instead of having one size fits all solutions from 
Washington that inevitably have us at each other's throats in 
differing views about how we should live our lives.
    I have often said that ballots in my state are upside down 
when I am campaigning because I think state and local officials 
should be listed first. They should be at the top, not the 
Federal officials who are often coming in and interfering with 
the great activities of our local communities in Texas.
    This is not the majority's first effort to Federalize 
elections. H.R. 1 includes numerous reforms that would apply to 
each and every state, and what works in Texas might not work in 
another state. states have the constitutional right to 
administer elections that best address the voting needs of 
their residents and states have enacted reforms that work for 
them.
    For example, some states have adopted early voting, mail-
only voting, and no excuse absentee voting. In Texas, we vote 
early for two weeks. You can vote in numerous locations all 
over the city of Austin, all throughout the Hill Country, all 
throughout San Antonio. Maybe that is good. Maybe it is not. 
Maybe we should have a holiday that day and let people vote all 
in one day.
    Maybe we should have two weeks early voting, three weeks, 
four weeks. I don't know. I tend to believe the early voting 
actually causes problems because you end up with different 
information, and things change. People are voting at different 
times with different factors.
    I would prefer people go in on a day with all the same 
information and vote. But each state can kind of play with that 
and see what works, see how it affects their citizens. 
Elections are not one size fits all.
    Common sense reforms aimed at solving wide-reaching 
election fraud, such as a registered sex offender, an illegal 
alien voting in Maryland elections since 1976, or campaign 
aides in New York filling out fraudulently absentee ballots are 
vital. And I would ask unanimous consent to enter a study from 
the Heritage Foundation that found almost 1,200 confirmed cases 
of voter fraud into the record.
    Mr. Roy. I would like to share a few examples of voter 
fraud from my home state in the last year. Our attorney 
general, for whom I used to work--I was the first assistant 
attorney general in the state of Texas--has done an excellent 
job of prosecuting individuals who sought to take advantage of 
our electoral system, including an illegal alien who in 
September of last year pled guilty to two second-degree 
felonies of voter impersonation and ineligible voting. She was 
sentenced to 10 years, charged a $10,000 fine, will be deported 
after serving 180 days in jail.
    In November 2018, the Texas Second Court of Appeals upheld 
the 2017 voter fraud conviction of a woman who voted illegally 
for more than 10 years by falsely claiming to be a U.S. 
citizen. And in January, a woman was indicted for illegally 
voting by using the identity of a woman who had been dead for 
nine years.
    It happens. What percentage is it? As my colleague points 
out, you know, one can determine whether it is negligible. But 
different communities have different impacts. I can tell you 
that the 100,000 people who came across the border, our 
Southern border in March alone that were apprehended--I'm not 
talking about who was not apprehended--those apprehended have 
an impact on Texas. They have an impact on Arizona, New Mexico. 
It is not the same as Maryland or Virginia or New York, and 
these things matter.
    We must all be committed to ensuring that our elections 
remain free and fair, and I thank my colleagues on the other 
side of the aisle, and I agree that we must not tolerate any 
attempt to deprive American citizens of the right to voice 
their opinions in Federal and state elections.
    I want to thank you all for being here today, and I look 
forward to your testimony.
    I yield back.
    Mr. Raskin. Thank you very much.
    Now I want to welcome our witnesses, and please rise. I am 
about to swear you in.
    Myrna Perez, the Deputy Director of the Democracy Program 
at the Brennan Center for Justice; Leigh Chapman, the Director 
of the Voting Rights Program at the Leadership Conference on 
Civil and Human Rights; and Dale Ho, the Director of the Voting 
Rights Project at the American Civil Liberties Union; and Ms. 
Phillips, forgive me, I don't have your identification--the 
Public Interest Legal Foundation. Ms. Phillips, special welcome 
to you.
    Do all of you swear or affirm that the testimony you are 
about to give is the truth, the whole truth, and nothing but 
the truth, so help you God?
    [Response.]
    Mr. Raskin. Let the record show that all the witnesses 
answered in the affirmative. Thank you, and please be seated.
    The microphones are sensitive, so please speak directly 
into them. And without any objection, your written statement 
will be made part of the record.
    With that, Ms. Perez, you are now recognized to give an 
oral presentation of your testimony for five minutes.

STATEMENT OF MYRNA PEREZ, DEPUTY DIRECTOR, DEMOCRACY PROGRAM, 
BRENNAN CENTER FOR JUSTICE

    Ms. Perez. Thank you, Members, for having me and for this 
opportunity to testify.
    Across our great country, there are justifiable concerns 
about voter suppression, but there are also advancements that 
make it easier for Americans to participate and vote. In my 
short time, I will focus on two major problems--voter roll 
purges and outdated voter registration systems.
    Fortunately, automatic voter registration, or AVR, is an 
encouraging response to both of these problems and is having an 
exciting impact in the states. We are delighted that the House 
passed AVR and other reforms when it passed H.R. 1.
    With respect to purges, I hope that we can all agree that 
election administrators should take reasonable measures to 
clean and maintain our voter rolls. We can all agree that when 
done correctly, voters and election administrators alike 
benefit from clean and accurate rolls.
    I would like to think that we can all agree that our voter 
registration lists should not only be clean and accurate, they 
should also be complete. And when purges are done badly, our 
rolls are not complete, and that causes confusion and delay at 
the polls and disenfranchises legitimate voters because purges 
are a special breed in that they happen with little sunlight in 
an office with a few strokes of a keyboard. The cost of 
mistakes are high.
    Accordingly, we believe that purges are an appropriate 
topic for further research and investigation from this 
committee, and there are two very specific reasons why the 
timing is especially ripe for this committee to study purges. 
The first is that states and localities continue to rely on 
faulty underlying data and faulty processes when purging 
voters.
    Now I use the word ``continue'' because I have been 
studying this for more than a decade, and we keep seeing 
similar bad practices appear. Years before my home state of 
Texas made the news for a sloppy attempted purge of 
noncitizens, a Texas Air Force veteran named James Harris Jr. 
was flagged by the state for removal because a James Harris of 
Arkansas died in 1996. And to be clear, bad purges can be found 
in areas as diverse as Wisconsin, Florida, New York, Arkansas, 
Virginia, and Texas. I include numerous examples in my written 
testimony.
    The second reason why this committee should study purges is 
that purge numbers are growing. Between 2014 and 2016, states 
removed almost 16 million voters from the rolls. That's almost 
4 million more than between 2006 and 2008, and it should be 
obvious that that is a rate that outstrips the growth rate of 
total registered voters and the growth rate of total 
population.
    What is especially concerning to the Brennan Center is that 
those jurisdictions no longer subject to Federal preclearance 
under Section 5 of the Voting Rights Act had purge rates that 
were significantly higher than jurisdictions that were not 
subject to preclearance. The Brennan Center has calculated that 
about 2 million fewer voters would have been purged if the 
preclearance jurisdictions purged at the same rate as those 
states that were not subject to preclearance.
    Moving on to outdated voter registration systems, we have 
outdated and incomplete methods that are presenting an 
unnecessary obstacle to voting participation. One in four 
eligible Americans is not registered to vote. If we built 
bridges such that one in four of them failed, we'd say that we 
need to find a better way to build bridges.
    Yet in still too many parts of this country, voter 
registration largely relies on an error-prone pen and paper 
system. But fortunately, there is a better way. Automatic voter 
registration, or AVR, is a policy first proposed by the Brennan 
Center more than a decade ago, and it is an appropriate 
response to two of these big problems.
    AVR makes two modest, but transformative tweaks to the 
traditional way we register voters. The first is that the 
information is transferred from designated agencies to election 
administrators electronically instead of using paper forms. The 
second is that we switch from an opt-in system, where a person 
has to affirmatively declare that they want to register to 
vote, to an opt-out system, where eligible citizens are 
registered unless they decline.
    I want there to be no mistake--people have the opportunity 
to decline. This is not compulsory registration. But we do know 
that in the last four years, 15 states and the District of 
Columbia have adopted automatic voter registration, and we know 
that it works. The Brennan Center recently calculated the 
impact of AVR on seven states and Washington, DC, that have 
been operating AVR for a while, and we know that registration 
substantially increases in AVR states, no matter the size of 
the state, its political leanings, or its AVR design.
    Among the jurisdictions studied, we found that the number 
of registrations increased, ranging from 9 to 94 percent. We 
enthusiastically support this committee examining the best and 
worst practices, and we enthusiastically support this committee 
exercising its authority to ensure that American elections are 
not only free and fair, but accessible.
    Mr. Raskin. Thank you very much, Ms. Perez.
    Ms. Chapman?

STATEMENT OF LEIGH CHAPMAN, DIRECTOR, VOTING RIGHTS PROGRAM, 
THE LEADERSHIP CONFERENCE ON CIVIL AND HUMAN RIGHTS

    Ms. Chapman. Good afternoon, Chairman Raskin, Ranking 
Member Roy, and members of the subcommittee.
    I am Leigh Chapman, Voting Rights Program Director at the 
Leadership Conference on Civil and Human Rights, a coalition of 
more than 200 national organizations working to build an 
America as good as its ideals. We have coordinated national 
advocacy efforts on behalf of every major civil rights law 
since 1957, including the Voting Rights Act of 1965 and 
subsequent reauthorizations.
    Thank you for the opportunity to testify today on the best 
and worst practices for protecting the right to vote. My 
testimony covers polling place closures and in-person early 
voting.
    It was not long ago, just in 2006, that this body 
reauthorized the VRA with sweeping bipartisan majorities. 
Congress held 21 hearings, heard from more than 90 witnesses, 
and compiled a massive record of more than 15,000 pages of 
evidence of ongoing racial discrimination in voting. Despite 
this record, in 2013, in Shelby County v. Holder, five Justices 
gutted the VRA's most powerful provision, the Section 5 
preclearance system.
    That system had enabled the Justice Department and Federal 
courts to prevent places with the most troubling histories of 
discrimination from implementing any voting change that would 
discriminate against voters because of their race. It was a 
system that ensured all voting changes were public and 
transparent.
    Since then, states and localities across the country have 
erected barriers to voting without such safeguards. These 
barriers have made it harder for Americans to vote at every 
juncture, from registration to casting ballots to having their 
votes counted. In almost every instance, these changes have no 
remedy because once an election is held, there is no way to 
hold it again.
    That's why safeguards like preclearance desperately need to 
be restored, so polling place closures, cutbacks to early 
voting, and the myriad of other potentially discriminatory 
tactics can be vetted to ensure that they don't target voters 
based on their race.
    Polling place closures can result in long lines, 
transportation hurdles, and mass confusion about where eligible 
voters may cast their ballot. For many people, particularly 
voters of color, seniors, rural voters, and voters with 
disabilities, these burdens make it harder to vote. This was 
seen in Randolph County, Georgia, where there was a proposal to 
close seven out of the nine polling places in a county that was 
60 percent black. Elections officials should make sure polling 
place reductions do not discriminate against voters of color.
    The 2016 Presidential election was first conducted after 
Shelby, and in advance of it, jurisdictions closed polling 
places on a massive scale. In 2016, the Leadership Conference 
released a report, ``The Great Poll Closure,'' documenting 
polling place reductions in many former Section 5 covered 
jurisdiction. In this report, we identified 868 polling places 
that were closed between 2012 and 2016 in half of all counties 
that were once covered by Section 5.
    In the 381 counties we studied, 165 of them reduced polling 
places. In Arizona, almost every single county reduced polling 
places, leading to 212 fewer voting locations across the state. 
In the 134 out of the 254 Texas counties we analyzed, there 
were more than 400 polling places closed.
    We are currently expanding and updating this report to 
include additional jurisdictions and data from the 2018 
election. We are finding that polling place reductions have 
continued unabated in states like Arizona, Texas, and Georgia.
    A best practice for protecting the right to vote that we 
support is in-person early voting, which provides increased 
access and flexibility for voters, shorter lines on election 
day, and makes elections run more smoothly. Early voting 
benefits marginalized voters, including working people, senior 
citizens, people with disabilities, and voters of color, many 
who have less flexibility over work schedules. And yet, despite 
the benefits, at least seven states have cut back on early 
voting opportunities since 2010.
    Voting and the ability to participate in our democracy is a 
racial justice issue. Congress must pass the Voting Rights 
Advancement Act to ensure our democracy works for everyone. 
Without a functional democracy, we cannot make progress on key 
civil and human rights issues like education, justice reform, 
and economic security.
    Thank you, and I welcome any questions.
    Mr. Raskin. Thank you very much.
    Mr. Ho?

STATEMENT OF DALE HO, DIRECTOR, VOTING RIGHTS PROJECT, AMERICAN 
CIVIL LIBERTIES UNION

    Mr. Ho. Chairman Raskin, Ranking Member Roy, and members of 
the subcommittee, thank you very much for the opportunity to 
testify today.
    My name is Dale Ho, and I'm the Director of the ACLU Voting 
Rights Project, where my current cases include Department of 
Commerce v. New York, in which we are challenging the Trump 
administration's effort to put a citizenship question on the 
Census, a case that I argued in the Supreme Court last week.
    My remarks today will focus on voter registration. Voter 
registration rates in the United States are much lower than in 
other Western democracies, more than 20 percentage points lower 
than in countries like Canada, the UK, and Sweden. Now I don't 
believe that Americans care less about politics than Canadians, 
Brits, or Swedes, but we do have a pattern of making it 
unnecessarily difficult to register to vote in this country. 
I'll give you two recent examples.
    One is a law that passed in Florida in 2011. New 
restrictions on voter registration drives, which required that 
people return forms within 48 hours or face fines of $50 per 
form, per day late. The League of Women Voters and Rock the 
Vote suspended all voter registration activities in the state, 
and the NAACP received a stern warning for turning in two forms 
approximately 90 minutes late on a Tuesday. They didn't turn 
them in that week on Monday because the office was closed due 
to Martin Luther King Day, but they still received that 
warning.
    That law was, thankfully, struck down, thanks to litigation 
brought by the Brennan Center, the ACLU, and other 
organizations. Unfortunately, several states appear poised to 
repeat Florida's mistakes. In Tennessee, the state legislature 
recently passed a bill that provides for fines of up to $10,000 
for submitting incomplete voter registration forms, and in 
Arizona, the house recently passed a bill that would make it a 
crime to pay someone or to be paid for working on a voter 
registration drive.
    Now make no mistake. If these laws are enacted, they will 
disproportionately affect voters of color. Recent Census data 
show that black and Hispanic voters are approximately 60 
percent more likely than white voters to have registered 
through a voter registration drive.
    Now my second example is a Kansas law, the brainchild of 
former Kansas Secretary of state Kris Kobach, which required 
voter registration applicants to submit a citizenship document, 
like a birth certificate or a passport, when registering to 
vote. It went into effect in 2013, and within three years, more 
than 30,000 Kansans had been blocked from registering to vote.
    It was about 12 percent of applications in that time. It 
was as if one out of every voter registration applications that 
came in the door were simply tossed in the trash. One of those 
applications belonged to a client of ours, a woman named Donna 
Bucci, who worked a low-wage job in a correctional facility 
cafeteria, who couldn't afford the fee for a birth certificate.
    Now Secretary Kobach claimed that the law was necessary to 
stop a supposed epidemic of noncitizen registration, but the 
evidence that he presented at trial showed a grand total of 39 
noncitizens who had registered to vote in Kansas over a 19-year 
period, about two per year, many of whom were registered only 
because of an error by state employee and not because of any 
choice to become registered themselves. The law was ultimately 
struck down as unconstitutional last year.
    Now there are some good voter registration practices that 
we should be talking about today, and I'll just describe one in 
particular--Election Day registration, or EDR, which permits 
people to register to vote and cast a ballot in a single trip 
to the polls or a state office on Election Day.
    Twenty states and the District of Columbia have adopted 
some form of same-day registration, and they're a diverse mix. 
They include states like Idaho, Iowa, Wyoming, New Hampshire, 
Hawaii, North Carolina. Within the last 12 months alone, five 
states have adopted Election Day registration, most recently 
New Mexico earlier this year.
    EDR is regarded by political scientists as the single most 
effective reform for increasing voter participation, boosting 
turnout by between three to nine percentage points, with 
perhaps the most significant gains among historically low 
turnout groups like low-income voters and voters of color. In 
2018, for example, the two states with the highest youth 
turnout rates were Wisconsin and Minnesota, both of which are 
EDR states.
    Combining registration and voting simplifies a two-step 
process. It takes advantage of voter interest when it's at its 
highest, and it allows voters to update or correct information 
on their registrations on Election Day, ensuring that no one is 
disenfranchised by administrative errors, and EDR is more 
secure because it's conducted in person. It typically requires 
documents to verify a person's residence or identity, and it 
often incorporates additional safeguards, which I'd be happy to 
talk about.
    Now just in closing, we shouldn't accept the cynical 
proposition that Americans are more apathetic than our friends 
in other democracies. Our Government is more representative, 
responsive, and accountable when more, rather than few, 
Americans participate.
    Thank you. I look forward to the conversation that we're 
going to have.
    Mr. Raskin. Mr. Ho, thank you very much.
    Ms. Phillips?

STATEMENT OF KAYLAN PHILLIPS, LITIGATION COUNSEL, PUBLIC 
INTEREST LEGAL FOUNDATION

    Ms. Phillips. Chairman Raskin, Ranking Member Roy, members 
of the subcommittee, thank you so much for having me here 
today.
    My name is Kaylan Phillips. I am an attorney with the 
Public Interest Legal Foundation, which is a nonprofit, 
nonpartisan law firm dedicated to election integrity.
    It has never been easier to register to vote than it is 
today. You are offered the opportunity to register to vote when 
you encounter many state agencies, including motor vehicle 
offices. If you somehow miss one of these opportunities, there 
are many private organizations that run voter registration 
drives at community events and even go door-to-door.
    In short, the opportunities to register to vote are 
plentiful and increasing. On the other hand, not much attention 
has been paid to ensuring that our country's voter rolls are 
accurate and current. As the Supreme Court recognized just last 
year, it's been estimated that 24 million voter registrations 
in the United States, which is about one in eight, are either 
invalid or significantly inaccurate.
    This problem has a ripple effect. It increases the workload 
of election officials and also decreases the public's 
confidence in our elections. I have studied voter roll list 
maintenance practices across the country and have seen these 
problems and inefficiencies firsthand. In short, there is no 
one solution to this problem.
    The Constitution wisely entrusts the states to run their 
own elections. However, there are general strategies and 
techniques that are universally applicable by decentralized 
means. Best practices for election officials include such 
common sense institutional measures as writing down their 
procedures and adequately training their staff.
    Beyond these basics, there are many ways to improve 
information sharing among state agencies and between states. 
states should be encouraged to implement common sense reforms 
that address the individualized problems that they face.
    One specific and alarming problem that I have discovered in 
my evaluation of our Nation's voter rolls is the failure of the 
citizenship check boxes on the voter registration form. 
Citizenship is a fundamental element of eligibility to vote in 
American elections. Yet the citizenship checks on the Federal 
form are merely an honor system.
    In my experience, those safeguards are wholly inadequate. 
Noncitizens continue to be registered to vote, sometimes by 
their own error and sometimes by the error of election 
officials. For example, our research has shown that individuals 
have been registered to vote even when they leave the 
citizenship check box blank or, worse, when they check ``no'' 
to the question, ``Are you a citizen of the United States?''
    Regardless of the circumstances, registering noncitizens 
may jeopardize their immigration status. The application for 
naturalization asks whether an individual has been registered 
to vote or has voted. The foundation's research finds that it 
is common for ineligible registrants to first learn of their 
voter registration status when they receive a communication 
regarding their application for naturalization.
    The applicant then has to reach out to local election 
officials, to gather their records and submit those to the U.S. 
Citizenship and Immigration Services. The stress caused by such 
a situation cannot be understated.
    One solution to this problem is to equip states to verify 
citizenship before an individual is placed on the rolls. There 
are tools presently available to the Federal Government that 
could be made available to state and local election officials 
in order to identify and correct mistakes before they lead to 
life-altering circumstances--consequences.
    Thank you.
    Mr. Raskin. Thank you very much.
    I now recognize myself for five minutes for questions. I am 
going to start with you, Ms. Perez.
    Automatic voter registration sounds like it makes great 
sense. You know, we would consider it a huge failure if we had 
as high a part of the population not going to public school or 
not going to school at all as we have not voting.
    We want everybody to be part of the voting system, and so 
automatic universal voter registration seems to make a lot of 
sense. But tell us in more detail how it actually works and 
what these states are doing and why you described it as being a 
very effective best practice.
    Ms. Perez. I think we should first start about what happens 
if someone goes to a traditional social service agency, what 
that exchange looks like. Somebody will go in. They will get 
asked by a clerk, what is your name, your address, your date of 
birth, whether or not you're a citizen. And if they're 
following the law, which they sometimes aren't, they then ask 
you, ``Do you want to register to vote?''
    And if you say yes, all too often, they hand you a piece of 
paper that requires you to fill out again what your name, your 
address, your date of birth, whether or not you're a citizen 
is. And that is inefficient because those systems then--those 
papers then have to get bundled, mailed, and someone has to 
hand enter them.
    With automatic voter registration, it becomes a streamlined 
process where the information that exists at the government 
agency that's relevant for information voter registration 
purposes gets sent over. And so that reduces error. So those 
that are concerned about inaccurate rolls will see much greater 
cleanness and efficiency in these records because you don't 
have to have people trying to decipher someone's chicken-
scratch handwriting or trying to hand enter it.
    It also changes the presumption. It welcomes people to our 
democracy. It sets forth the policy, the norm of registering to 
vote. And those two things together change behaviors, and we've 
seen some astonishing results in a number of parts of the 
country.
    Automatic voter registration is a way, a modern way, an 
efficient way to make our voter rolls more clean and to get 
more people on the rolls. And it's something that has enjoyed 
bipartisan support in a number of states and something that I 
hope this committee will give serious consideration to.
    Mr. Raskin. Thank you very much.
    Mr. Ho, let me come to you. Another committee--I serve on 
the House Committee on Administration--has been very interested 
in this problem of voter purges, and we have been to Georgia 
and Ohio, a number of other states to look at what this means.
    In Ohio recently, we heard testimony about how more than 
400,000 people were purged for failing to have voted in the 
last election. In some cases, that was a mistake, but even in 
the cases where people didn't vote, the argument was made by 
the voter rights groups that you have a constitutional right 
not to vote just like you have got a right to vote. You can't 
punish that by disenfranchising the people.
    But the mechanism by which they alerted people to the fact 
that they hadn't voted and, therefore, they would be purged 
unless they responded was a little postcard, which lots of 
testimony suggested was getting lost inside newspapers and 
magazines in the mail or misplaced or what have you.
    Describe the mechanics of voter disenfranchisement based on 
purges and whether you think that is a fair way to keep the 
rolls up to date.
    Mr. Ho. Sure. Well, we can talk about the Ohio example that 
you identified. What Ohio would do was try to identify people 
who may have moved to another state based on whether or not you 
voted, right? And so if you don't vote in an election, Ohio 
would then start to flag you as a potential nonvoter.
    Now, you know, we have pretty low turnout rates in this 
country compared to other democracies. In most mid-term 
elections, half of eligible voters don't vote. So it's a pretty 
broad presumption to assume that half of people have moved when 
we know that that's not what's happenings.
    They'll send you a postcard, and a lot of times it gets 
lost, as you noted. It looks like junk mail, I think, to a lot 
of people, and so people don't respond to it. And then if you 
don't respond to it and you don't vote in subsequent elections, 
they knock you off. And I think that does raise a lot of 
concerns about whether or not simply the act of not voting 
should be taken as evidence that you've moved and are no longer 
eligible to vote.
    Mr. Raskin. I mean, how does same-day voter registration 
help to counteract some of the problems of registering to vote 
or voter purges?
    Mr. Ho. Well, in the case of overly aggressive voter 
purges, same-day registration, I think, is a perfect safety net 
for that kind of situation. So someone gets flagged. They get 
removed because the state thinks that that person has moved, 
but then the person can show up on Election Day and say, 
actually, you made a mistake. I'm still here. I'm still 
eligible, and you should let me cast a ballot.
    Mr. Raskin. And we heard testimony from a lot of frustrated 
Americans who said they had no idea they had been removed from 
the polls. They had not moved out of state. They showed up at 
the polls, and then they were told they couldn't vote, and if 
there was no same-day voter registration vehicle, they were 
just out of luck.
    Mr. Ho. Right.
    Mr. Raskin. And who are they going to sue to get their 
democracy back, right?
    So, all right. With that, I am going to turn to the ranking 
member, Mr. Roy. Oh, I am sorry. Mrs. Miller, you were going to 
be called on first.
    Thank you very much.
    Mrs. Miller. Thank you, Mr. Chairman, and thank all of you 
for being here today.
    I was formerly a county party chair in West Virginia, and I 
have spent countless hours with county clerks to ensure that 
the elections held in my state were fair. They have my utmost 
respect. They work very hard.
    I am proud that West Virginia is a leader in fighting voter 
fraud. The state is continuously looking to ensure that we have 
clean and accurate voter rolls. The West Virginia secretary of 
state also utilizes technology to ensure that voters can easily 
find their polling place and know who is on their ballot before 
the election.
    He has also implemented a program where he goes into the 
high schools in every county to talk to them about voting and, 
you know, registering to vote at 18, and how important it is 
for them to do so.
    My colleagues across the aisle recently passed a bill that 
mandates a one size fits all approach to Federalize our 
elections. H.R. 1 is a textbook example of a top-down approach 
that will not only be a disaster to implement, but will also 
result in more voter fraud.
    In California, there have been multiple cases throughout 
the years of dead people voting, individuals voting multiple 
times, and noncitizens voting in our elections. This is 
unacceptable, but instances like this will not only increase if 
H.R. 1 is ever enacted into law.
    Ms. Phillips, how could data sharing, both within states 
and between states, help improve voting practices?
    Ms. Phillips. Thank you for the question.
    Absolutely, more information is better. Giving--equipping 
our election officials to do their job will result in cleaner 
rolls, and that is the ultimate goal is the most accurate and 
complete rolls that we can possibly get.
    Mrs. Miller. Are there roadblocks that prevent states from 
sharing that data?
    Ms. Phillips. There might be. There might be various 
privacy laws or different state laws. But I think that it 
should be--states should be encouraged to enact laws that allow 
them to share the information with other states.
    Mrs. Miller. And would those be state laws?
    Ms. Phillips. There could be. Yes.
    Mrs. Miller. Okay. How can we encourage those states to 
share their data?
    Ms. Phillips. I think that should be the focus. Rather than 
try to Federalize voter registration, list maintenance, it 
should be incumbent upon the states and ensure that the states 
understand that this should be a priority.
    Mrs. Miller. From my experience working in the elections, I 
have heard from county clerks that it is very difficult to 
remove deceased individuals from the voter rolls. Can you speak 
to how criminals exploit this loophole in our system?
    Ms. Phillips. Certainly. It is difficult because there--
because of the lack of data sharing, because of the fact that 
we are an increasingly mobile people, and people may pass away 
in states other than the states in which they are registered. 
So that it's a difficult thing to detect unless election 
officials are actively working to seek it out. And that kind of 
those having deceased voters on the rolls is just ripe for 
voter fraud, certainly, yes.
    Mrs. Miller. So if grandma went to live with her daughter 
in another state and then passes away, nobody contacts her 
original residence to let them know. Correct?
    Ms. Phillips. That might be true. Certainly it's not the 
first thing on a relative's mind to contact the election 
officials. And if the election officials are relying only upon 
county death records, then that information will not be passed 
to them through that mechanism.
    Mrs. Miller. It might even be possible if they then go to 
sell grandma's house that somehow one part of the courthouse 
might let another part of the courthouse know that the 
individual is selling that house because the owner is deceased?
    Ms. Phillips. That's--it's not something that you see very 
often. There usually is a very clear chain of information 
coming from county clerks to the election officials. And so if 
that information is not being shared via death records, then 
the county--the elections officials need to seek it out 
actively.
    Mrs. Miller. What is the process to remove a deceased 
individual from the voter rolls, and how long does it normally 
take?
    Ms. Phillips. That's state dependent. So if a death record 
is received, in many states then the removal is upon receipt. 
But that does vary from state to state based on their law.
    Mrs. Miller. Thank you. I pass back my time.
    Mr. Raskin. Thank you very much.
    We go now to the distinguished gentleman from Missouri's 
First District, Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman. And thank you for 
holding this hearing.
    Let me start out by mentioning to Mrs. Miller and Ms. 
Phillips that my first congressional election in 2000, I wound 
up in court on Election Day because the city of St. Louis Board 
of Elections had illegally purged 30,000 voters in our 
district. So the point of this is that I think election 
authorities should err on the side of caution.
    It is already difficult enough to get Americans to 
participate in the process. So how dare you wholesale remove 
people from rolls? How dare you do that? And it is not all 
right.
    So let us be for real, Mrs. Miller, about what these states 
are doing and election authorities are doing to lessen the 
number of voter----
    Mr. Cloud. I believe you need to make your remarks to the 
chair.
    Mr. Clay. No, I am talking to this committee. So don't tell 
me who I need to talk to.
    Let me start with Mr. Ho. Mr. Ho, the state of Florida just 
recently passed a ballot initiative to allow those with felony 
convictions to be re-enfranchised. And I understand that the 
majority in the Florida state legislature has engaged in some 
trickery, some underhandedness to not allow these people and to 
erect barriers for those returning citizens to re-register to 
vote. Can you or Ms. Perez shed some light on that?
    Mr. Ho. Yes, I'd be happy to speak to that, Congressman 
Clay. So as you noted last year, Florida voters overwhelmingly 
approved a ballot initiative that would restore voting rights 
to people upon completion of their felony conviction, subject 
to a few limited exceptions. And it was, I think, hailed as a 
just major, major leap forward for our democracy.
    Maybe the greatest single act of enfranchisement since 18-
year-olds got the right to vote because there were 1.4 million 
Floridians who had completed their sentences, were back in 
society, but were permanently barred from voting under 
Florida's constitution. Florida was one of only four states 
that did that. And because it's so big, it, you know, affected 
a lot of people.
    What is happening now on the floor of the legislature is a 
shame. The legislature is considering bills that would require 
people not only to have finished their incarceration terms of 
their sentences--probation, parole, and whatever--but also 
repay legal financial obligations.
    Mr. Clay. Oh, that is prior to 1965 Voting Rights Act, like 
a poll tax.
    Mr. Ho. Fines, fees, and restitution.
    Mr. Clay. How racist.
    Mr. Ho. Well----
    Mr. Clay. How racist.
    Mr. Ho [continuing]. it's--I think if they go forward with 
it, it would be a huge mistake. It would be contrary to the 
will of Florida voters. And you know, it would really, I think, 
criminalize essentially poverty and lock people out because 
they can't afford to pay fees.
    Mr. Clay. Ms. Perez, anything to add?
    Ms. Perez. I would also add to my good friend Dale's 
comments, it's also counterproductive. If we want people to be 
successfully reintegrating into our society, we need to make 
them a stakeholder. We are a country that believes in second 
chances. We are a country that believes that people can rise to 
the challenge. And if we are going to be sending a message that 
we want everybody participating in voting, we need to not be 
engaging in political shenanigans to try and thwart the will of 
the people.
    I would note that Amendment 4 received more support on 
Election Day than any candidate in the state of Florida did. 
And for that reason, I would hope that the state of Florida 
enacts Amendment 4 as it was adopted by the people and 
eliminates this blot that had been on Florida.
    Mr. Clay. And it is the height of hypocrisy from my 
colleague on the other side to talk about this is about 
election integrity when we all know what it is about. We all 
know what it is about.
    Ms. Chapman, you mentioned a recent report that your 
organization issued on the elimination of polling places. Do 
you have any in my state of Missouri that we need to be 
concerned about?
    Ms. Chapman. We studied jurisdictions that were formerly 
covered by Section 5 of the Voting Rights Act. We studied a 
sampling, about half of those jurisdictions. So, unfortunately, 
Missouri is not included in that report, but we're happy to do 
some research and get back to you about that.
    Mr. Clay. And I thank the panel for their response, and I 
yield back, Mr. Chairman.
    Mr. Raskin. Thank you very much.
    And next, we come to the gentleman from Texas, Mr. Cloud.
    Mr. Cloud. I yield to the ranking member.
    Mr. Roy. I appreciate that, Mr. Cloud, my friend from 
Texas.
    Given that our friend Mrs. Miller from West Virginia is not 
here to respond, I assume that my colleague Mr. Clay is not 
impugning the character of Mrs. Miller from West Virginia and 
implying that, for some reason, she has any motives other than 
wanting to ensure that voter integrity and that the rolls in 
West Virginia are the best that they could be to ensure the 
integrity of our elections in the United States.
    Mr. Raskin. And I certainly did not hear that, and I don't 
think it was the intent----
    Mr. Clay. Would the gentleman yield?
    Mr. Roy. Yes, I would.
    Mr. Clay. I would never impugn Mrs. Miller's integrity, but 
I will criticize the tactics of your party in every state 
legislature that has seen the coloration of your electorate. 
Now that is what I am talking about. That is what the 1965 
Voting Rights Act was about, to allow more people of color to 
participate in the process.
    You and I know what the history was. So let us not act like 
it didn't happen and that this is about voter integrity when 
you know it is not.
    Mr. Roy. Reclaiming my time, what I would suggest is that 
by the very nature of even that, it is still impugning the 
motives and what my character--or the character of what my 
colleague Mrs. Miller was talking about with respect to what 
she believes is critical and what I share and what I believe is 
critical with respect to the integrity of voter rolls. It has 
nothing to do with color. It has nothing to do with----
    Mr. Clay. Mr. Roy----
    Mr. Roy [continuing]. race. It has everything in the world 
to do with assuring that citizens and people that are supposed 
to vote are voting.
    Mr. Raskin. And then, Mr. Roy, I think the gentleman has 
disclaimed any interest in impugning the motives of Mrs. 
Miller, and no one is impugning her motives in any way or 
impugning any adverse intentions on her part.
    Mr. Roy. I will yield back to Mr. Cloud then.
    Mr. Raskin. Okay.
    Mr. Cloud. Thank you.
    So, true story. Someone recently moved into my district and 
from another state and dutifully went to the local library to 
try to check out a book, but did not have proof of residence, 
so immediately went to the DMV to try to get a driver's 
license. Still not having proof of residency, this person 
walked into the voter registration office and without proving 
their residency was able to attain a voter registration card, 
to which they took to the DMV to get a driver's license, to 
which they took to the library to be able to check out a book.
    So I guess just the moral of the story is, is we can be 
secure in knowing that our books are well protected in our 
Nation. I am not so sure about the vote, especially in Texas at 
the moment, where we have, as was mentioned, 100,000 people who 
just last month crossed our border.
    Texas is not given the resources needed to protect our 
border, and yet we are also not necessarily--our efforts to 
protect our vote are challenged.
    Mr. Ho, do you think that illegal aliens should be allowed 
to vote?
    Mr. Ho. No, and I'm not aware of any state that does so. 
What I think we need to do is take a step back from this notion 
that there are hordes of people crossing the Rio Grande so they 
can vote for agricultural commissioner or something like that. 
I mean----
    Mr. Cloud. I wasn't suggesting that. Thank you. You 
answered my question.
    Should states then be allowed to put in just reasonable 
protections to secure that someone who is registering to vote 
is a citizen?
    Mr. Ho. I think the challenge here is defining what 
constitutes reasonable.
    Mr. Cloud. Sure.
    Mr. Ho. Because there are a lot of things that sound 
reasonable, but in practice end up being quite destructive. So 
Kansas, for example, passed a law that required people to show 
a birth certificate or a passport when you register to vote on 
the theory that we need to make people prove that they're 
citizens in order to register to vote. And what they ended up 
doing was stopping 30,000 Kansans from registering to vote, all 
to stop a problem of approximately two noncitizens per year who 
were getting registered mostly because of mistakes by DMV 
workers.
    Mr. Cloud. I think even a broader question is who makes 
that estimation, and the question before this committee is, of 
course, where the jurisdiction lies, mainly with states or with 
the Federal Government?
    Without objection, I would like to submit a few articles 
for the record. ``Texas Woman Sentenced to 5 Years in Prison 
for Voting Illegally in the 2016 Election.'' ``Robstown 
Residents Indicated on Multiple Counts of Voter Fraud.'' ``Ten 
Oregon Voters Plead Guilty to Voter Fraud in 2016 Presidential 
Election.'' ``Texas Court Upholds Conviction of Woman Sentenced 
to 8 Years in Prison for Voter Fraud.'' ``James City Man 
Indicated on Voter Fraud Charges.'' ``Edinburg Mayor, Wife 
Latest to be Charged with Illegal Voting.'' ``Elmwood Park 
Mayor Charged with Voter Fraud Resigns.''
    ``Salvadoran National Indicted on Immigration and Voter 
Fraud Violations in East Texas.'' ``Campaign Manager Charged 
with Buying Votes in Donna, Texas, School Board Election.'' 
``Two Campaign Workers Admitted to Buying Votes in Hidalgo 
County, Texas, Elections.'' ``Mexican National Who Took 
Cousin's Identity to Vote Illegally to be Deported.''
    Mr. Raskin. Without objection, they will all be entered.
    Mr. Raskin. And now I recognize the vice chair of the 
committee, Ms. Ocasio-Cortez.
    Ms. Ocasio-Cortez, you are recognized.
    Ms. Ocasio-Cortez. Thank you.
    You know, I find it, the documents that were just submitted 
to the record, quite interesting from my colleague from Texas 
because these are all people and cases of indictment and where 
people went to jail. In Fort Worth, Texas, there was a woman, 
Crystal Mason, a 43-year-old mother of four, that went and was 
sentenced to prison for five years for voting when she was 
ineligible.
    Ms. Mason was released from prison, and she thought that 
she was eligible to vote. She thought that she was eligible to 
vote. She had served her debt to society, was released, and 
didn't know at the time that she was ineligible. So she cast 
her ballot. She was identified in the state of Texas, put up in 
handcuffs, and was thrown right back in jail. To make an 
example of her, I would imagine, the judge sentenced her to 
five years in prison.
    All of those cases that were submitted to the congressional 
Record are travesties because I will tell you a different side 
of this coin. In 2017, the New York City Board of Elections 
admitted that it broke the law when it improperly removed 
voters from the rolls just ahead of the Presidential primary 
elections, including an improper purge of 117,000 voters in 
Brooklyn alone.
    In the name of inaccuracies and all of this fearmongering 
about people who shouldn't be voting, which we know is not the 
case, 220,000 voters, people in New York were disenfranchised 
and removed of their right to vote. And the Queens Board of 
Election allegedly used Ancestry.com as the basis for removing 
people from the rolls.
    This is what we are talking about, and this is what is 
being done in the name of this false campaign of voter fraud, 
which we know, study upon study, to not be true. So beyond 
that, let us say imagine it is my voting day, and instead of 
being 29, I am 79. I can't walk easily down the street. I need 
help getting down stairs, and I do not have a computer.
    I make it to the bottom of my New York City building where 
my voting location has been for close to half a century only to 
find out it was moved the night before to a new location 3/
10ths of a mile away. At the time, New York City does not have 
early voting, no mail-in ballots, no same-day registration 
either. And so, as a result, I cannot vote. I have missed out 
on my constitutional right.
    Now imagine it is 2018, and I am 29 years old, and I am 
running for Congress in my home borough. And I show up to my 
own electoral precinct, and I can't vote. I am told that my 
vote--my polling location is virtually shut down for several 
hours because every polling machine is broken.
    Both of these stories are true. Both of these things 
happened. The first happened in 2012 when the polling site was 
moved with only a few days' notice, making it nearly impossible 
for elderly people of color to get to participate in Election 
Day. Because what we have found is that these poll site changes 
in New York City are disproportionately concentrated in 
communities of color.
    One hundred forty-nine polling sites were moved throughout 
the city, and that is 14 percent of the total polling locations 
that were moved.
    Ms. Chapman, do you find that moving these voting sites 
occurs at higher rates in communities of color?
    Ms. Chapman. Yes. Actually, our report, ``The Great Poll 
Closure,'' one of the key findings was that polling place 
closures primarily happen in communities of color. And now that 
we do not have the full protections of the Voting Rights Act, 
there is little notice. There is little transparency, and 
there's little actual input from the communities that are most 
impacted by these changes.
    So those are some of our recommendations that we would like 
to put forth.
    Ms. Ocasio-Cortez. And so have you found that states with a 
history, in fact, those that were subjected to the Voting 
Rights Act, because they had disproportionately targeted 
communities of color and disenfranchising communities of color 
in the past, now that that provision has been lifted, are those 
states back to targeting communities of color?
    Ms. Chapman. Yes, they are. And actually, we're currently 
conducting our analysis for--I'm looking at 2018 data. Some of 
the states that have done this the most are Arizona, Texas, and 
Georgia, all states that were formerly covered by Section 5 of 
the Voting Rights Act.
    Ms. Ocasio-Cortez. And Ms. Chapman, were there states that 
restricted or tried to restrict early voting in the 2018 mid-
term elections? Because we know that these changes, sometimes 
the only way that we can reverse the impacts of purges is 
through same-day voter registration and, rather, through early 
voting. So were there states that restricted or tried to 
restrict early voting in the 2018 mid-terms?
    Ms. Chapman. Yes. And I think with early voting, it's 
really about where the early voting locations are placed. And 
for instance, we saw in Florida, there was a decision that 
allowed early voting locations to be on college campuses, and 
that was not equitably distributed.
    Our organization actually worked on the ground in the 
Florida, and we were able to advocate for an early voting site 
at Florida International University, which is primarily 
Hispanic. But we were not able to do that at FAMU in 
Tallahassee, which is an HBCU.
    So it's really important that these early voting sites can 
be accessible to communities of color.
    Ms. Ocasio-Cortez. Thank you.
    Mr. Raskin. The gentlelady's time has expired. Thank you.
    Mr. Roy?
    Mr. Roy. Mr. Hice, please.
    Mr. Raskin. We will go to Mr. Hice.
    Mr. Hice. Thank you, Mr. Chairman. I appreciate you holding 
this hearing.
    I just believe everyone in this room wants voter security, 
and in that regard, we may have different views and 
perspectives, but we want honest elections. I have heard some 
remarks about my home state of Georgia that I believe need to 
be set right. The record needs to be set straight. I have just 
some basic facts.
    Georgia voters of all demographics turned out in record 
numbers for the 2018 mid-term elections. It nearly matched the 
Presidential election of 2016. Fifty-five percent of the 
eligible voter population turned out for the 2018 mid-terms. 
That is significantly higher than in the past, compared to 38 
percent in 2014, 40 percent in 2010.
    And I am proud that the turnout by minorities increased 
dramatically compared with 2014. African-American turnout 
increased 32.5 percent. Hispanic community, 97 percent. Asian 
American community, 98 percent. This does not sound like a 
voter suppression campaign in Georgia because a voter 
suppression campaign did not occur. We had record numbers of 
minority groups voting in Georgia, and I want the record 
straight on that.
    With that, I would like to begin some questions for each of 
you. I don't want a dissertation. I want a yes or no on this 
because they are just basic questions.
    Ms. Perez, I will begin with you. Do you believe that only 
U.S. citizens should be allowed to vote in U.S. elections? 
Please put your mic on.
    Ms. Perez. Sure. Yes.
    Mr. Hice. Ms. Chapman?
    Ms. Chapman. Yes. That's the position of the Leadership 
Conference.
    Mr. Ho. Yes, with a caveat. A number of local jurisdictions 
like Tacoma Park in Maryland permit legal permanent residents 
to vote in local elections----
    Mr. Hice. I am not talking local. I am talking U.S. 
election. Should U.S. citizens be the only ones allowed to 
vote?
    Mr. Ho. Yes.
    Ms. Phillips. Yes.
    Mr. Hice. All right. Do you believe a person should be 
allowed--should be forced to show proof of citizenship to 
register to vote?
    Ms. Perez. I do not believe someone should show documentary 
proof of citizenship. Every time someone registers, they have 
to present some kind of citizenship affirmation.
    Mr. Hice. Should they prove that they are a citizen when 
they register, yes or no?
    Ms. Perez. Should they, or do they?
    Mr. Hice. Should they? Do you believe a person should show 
proof of citizenship to register to vote?
    Ms. Perez. I would say that they should, and they do.
    Mr. Hice. Okay.
    Ms. Chapman. I agree with my colleague, Ms. Myrna Perez----
    Mr. Hice. Is that a yes or a no?
    Ms. Chapman. Yes.
    Mr. Ho. I'm sorry, Congressman Hice. I don't--I'm not sure 
I understand what you mean by ``proof.''
    Mr. Hice. Well, I mean, should they--when they register to 
vote, should they prove that they are a citizen?
    Mr. Ho. And what do you mean by----
    Mr. Hice. In whatever way. I am not defining--should they 
prove? If all of you say only a U.S. citizen should vote, so 
should they prove that they are a citizen before they register?
    Mr. Ho. With an attestation under oath, as is done in 48 
states and the District of Columbia----
    Mr. Hice. All right. Yes or no?
    Ms. Phillips. Yes, or their citizenship should be affirmed 
in some way.
    Mr. Hice. Okay. If not required to show proof of 
citizenship to register, should they show proof of citizenship 
when they cast a ballot?
    Ms. Perez. You're asking the counterfactual. So if we lived 
in a regime where they didn't have to do it, should they have 
to do it somewhere else?
    Mr. Hice. Right.
    Ms. Perez. I've not pondered it yet.
    Mr. Hice. Okay.
    Ms. Chapman. Can you repeat the question, please?
    Mr. Hice. Should they show proof of citizenship when they 
cast a ballot?
    Ms. Chapman. The Leadership Conference doesn't have a 
position on that.
    Mr. Hice. Okay.
    Mr. Ho. I mean, everyone does when they register to vote by 
signing an attestation under penalty of perjury.
    Mr. Hice. All right. So--I am sorry, Ms. Phillips?
    Ms. Phillips. Their citizenship should be confirmed before 
they're put on the rolls.
    Mr. Hice. Okay. That is the point. So all of you agree that 
only citizens should vote, and at some point in the process, 
that ought to be confirmed. Are we in agreement with that? Only 
one is nodding their head.
    If U.S. citizens--and all of you said yes--only citizens 
should vote in the U.S. elections, but now you are not saying 
they should prove at any point that they are a citizen?
    Ms. Perez. Sir, I think--if I may respectfully suggest that 
the confusion that we are experiencing is that people do have 
to demonstrate citizenship when they register to vote, they 
have to attest under oath that they are, in fact, a citizen. 
And that has proven a successful means of demonstrating 
citizenship. I don't think----
    Mr. Hice. The issue here is having clean rolls, that we 
know that only people who are citizens are voting.
    Ms. Perez. We all agree that our rolls should be clean, and 
I think we all agree that election administrators should take 
reasonable steps to make sure that they're as clean as 
possible. The part that you're getting some hesitation, I 
believe, is because of the suggestion as to what is appropriate 
proof, and what is going to be the damage that is caused by 
demanding certain levels of proof?
    And some of us are a little bit gun shy because we have 
seen requirements of proof being proposed that would have a 
catastrophic effect on voter registration----
    Mr. Hice. And some of us are gun shy because we haven't. 
And I know my time has expired.
    But thank you, Mr. Chairman.
    Mr. Raskin. Thank you very much.
    I come now to the gentleman from California's 34th 
District, Mr. Gomez.
    Mr. Gomez. Thank you, Mr. Chairman.
    In 2007-2008, I had the privilege to go campaign in 
Democratic primaries throughout the country. Everything from 
Iowa to New Hampshire to Pennsylvania, Texas, Puerto Rico--and 
yes, Puerto Rico is in the country--all the way to California 
and Washington. And I can tell you, and I can tell the American 
people, that democracy is not created equal in the United 
States of America.
    People think it is, and that is what the--that is the what 
is wrong. And it is not.
    In New Hampshire, I saw a state trooper in a polling booth 
sitting right at the registration table. I am sure why you need 
a state trooper. I don't know what they are going to steal, but 
there was a state trooper.
    When we were campaigning in Texas, we were asking for voter 
rolls in certain counties in Texas, and we were told that there 
is no Democrats registered in this county, out of the whole 
county, not one Democrat.
    I have seen where polling places just got moved. So what we 
have continuously seen is the disenfranchisement of different 
populations to this country through different means, right? 
Requiring the ID laws is just another means of voter 
suppression, another means to disenfranchise individuals, as 
all of you know.
    We are trying to change that. My colleague from I think 
West Virginia always loves to point out California, if it is 
California on voter fraud, California on climate change, 
California on housing. I am proud to be a Californian. We are 
an inclusive state. We bring people together.
    Yes, we have problems. But you know what? We say you come 
here, you have a place in California. And what we try to do is 
we actually tried to pass a law that understands that people, 
when it comes to exercising the right to vote, that you 
shouldn't--it shouldn't be in the affirmative, right? It is a 
right.
    So we passed a voter registration law, an automatic voter 
reg law in California. I was there when we did it. It actually 
just automatically registers people to vote as they sign up for 
their driver's license. We have seen a huge spike in the number 
of people who are registering to vote, and we have also seen a 
huge spike of people turning out to vote.
    Each election, we have to see how it kind of continues to 
go, but each election you see it happening more and more, 
especially amongst the young people. But young people are 
turning out, and that is a good thing because then, all of a 
sudden, elected officials have to consider more what the young 
people want from their politicians.
    So, Ms. Perez, how is it that voters who are legally 
registered to vote are purged from the rolls? And what is wrong 
with the purging process?
    Ms. Perez. There are a number of problems, but they 
essentially boil down to two issues, bad underlying data or bad 
processes. You'll have some instances in which someone will get 
a sloppy list. I am reminded of a situation in Arkansas in 
which some government officials were trying to compile a list 
of people who had been disenfranchised because of a criminal 
conviction, but they were overbroad, and they actually got 
people who had gotten divorces and parking tickets and were 
somehow court involved, but not because of a criminal 
conviction.
    And that list was passed on, and the election 
administrators that didn't have the resources took it as gospel 
and removed people.
    We have other incidences in which people will be looking at 
information, like, for example, the Master Death File that the 
Social Security Administration produces, and will have overly 
broad what we call computer matches. So they won't be looking 
at enough unique identifiers to not be able to confuse Myrna 
Perez who lives in Jersey City with Myrna Perez who lives in 
San Antonio, Texas.
    And unfortunately, with purges, it's because they happen in 
an office, you know, behind closed doors, voters do not find 
out about it until it's too late. We will also, unfortunately, 
see examples, as the Member from New York indicated, where 
folks are violating certain guardrails and protections like 
disenfranchising people too close to an election.
    Mr. Gomez. Before I run out of time, how does automatic 
voter registration help voters who have been purged from rolls?
    Ms. Perez. What it does is that when someone has been 
purged, and they're able to go to the driver's license office, 
they're able to get back in quicker. In fact, one thing that 
might be surprising to people is that Georgia's automatic voter 
registration increased registration by a ton, and we think it's 
because there were so many people that were eligible to be 
registered because they had been previously purged.
    Mr. Gomez. Thank you, Ms. Perez.
    I yield back.
    Ms. Ocasio-Cortez.
    [Presiding] Thank you. Thank you. The gentleman's time has 
expired.
    The chair now recognizes--the chair now recognizes the 
Member from Kentucky's Fourth District, Mr. Massie.
    Oh, is he not here? All right. The chair now recognizes the 
distinguished ranking member for five minutes for questioning, 
Mr. Roy of Texas.
    Mr. Roy. I thank my friend from New York for recognizing 
me, and I thank you all for your patience today.
    Ms. Phillips, question. We have heard a lot about purging. 
Can you explain a little bit about--as quickly as you can, so 
we can get to some other questions--some of the merits behind 
wanting to have clean voter rolls, making sure that we know 
that we have got a strong voter system, and what some of the 
reasons are for having that?
    Ms. Phillips. Sure. Reasonable list maintenance is not only 
the law, it's good practice. So it's the foundation for 
everything. It eases the burden on the election officials 
because there's less inaccurate rolls that they have to 
maintain. And then also it can make voting lines shorter. It 
can make voting go faster. It just--it is good policy.
    Mr. Roy. Do local communities often know best where the 
proper place to put a voting location is for the people who 
live there, maybe perhaps better than people in Washington, 
DC.?
    Ms. Phillips. Yes. Absolutely.
    Mr. Roy. Are there cases where there are restrictions on 
where we can have a voting location? For example, I am aware of 
at least one case, and I think it was in North Carolina, where 
someone--where it was required that they move a voting location 
because there was an ADA restriction at a certain building 
because the building was under construction. And then they 
ended up moving the building to another location, which didn't 
have the proper ADA access. And it was removed or something 
from the city.
    The point is, they didn't have the ability because of 
various voting restrictions in being able to find a place to be 
able to go put a place where people could access it. Are there 
a lot of different angles and things that occur in local 
communities that factor in where you might want to put a voting 
location?
    Ms. Phillips. Absolutely, yes. And they are closer to the 
people, so the local election officials know best.
    Mr. Roy. Is it surprising in the slightest bit that a 
location that has been under restriction from Washington, DC, 
about where polling locations are placed, for whatever reasons, 
that that restriction was then lifted, that there would then be 
different polling locations and/or reduced or changed polling 
location sin that particular jurisdiction, for whatever reason?
    Ms. Phillips. No, that's not surprising.
    Mr. Roy. And if we know that there are certain 
jurisdictions in this country that had to comply with whatever 
was being decided from Washington, and they decided to change 
polling locations, is it necessary that we know--do we know 
what the motives were behind moving the polling locations, 
other than wanting to make sure that it was in the best 
interests of the people in that state for those that were 
deciding it?
    Ms. Phillips. No. And certainly, we shouldn't assume that 
there were bad motives, if none are presented.
    Mr. Roy. Can I ask a quick question on the question 
following up my friend from Georgia to each of the three of you 
all--Ms. Perez, Ms. Chapman, Mr. Ho? The question was asked 
about whether there should be questions--or, first of all, 
whether or not you believe that those who are here illegally in 
the United States should be able to vote. Each of you, I think, 
agreed no. At least in Federal elections in your case, I think, 
Mr. Ho, clarifying that.
    And then we had asked a question about whether or not you 
should have to prove your identity as being a citizen. Each of 
you discussed attestations that you are, in fact, a citizen. 
And so my question is, do you believe that you should be 
required to show voter identification when you register, not 
just attest, yes or no? Should you have to be able to show a 
passport or any kind of documentation and combined with 
something like either a birth certificate or some indication 
other than you just attesting that you are a citizen.
    I am not saying that is a good policy or bad. I am just 
curious, yes or no?
    Ms. Perez. No.
    Mr. Roy. Okay. Ms. Chapman?
    Ms. Chapman. I mean, there's Federal law for first-time 
voters that they're required to show some type of form of ID. 
Not photo ID, but either a utility bill or a bank statement or 
a passport.
    Mr. Roy. Mr. Ho?
    Mr. Ho. I'd say no, Congressman Roy, but with some 
flexibility. There are--well, there's a wide range of 
identification requirements. Thirty-three states have some kind 
of identification requirements at the polls, but only about 
half a dozen have extremely strict ID requirements that require 
you to show one of a limited form--one of a limited set of 
forms of government-issued ID. And those are the laws that we 
really take issue with because they don't provide a sufficient 
range of options for voters who either lack those specific IDs 
or any ID at all to still be able to participate.
    Mr. Roy. So yes or--you say that was no, though?
    Mr. Ho. No, but I think there's a lot of variation in ID 
laws, and we don't necessarily think that all of them are 
pernicious.
    Mr. Roy. Ms. Phillips, do you think that showing a form of 
photo ID and/or combined with proof of citizenship, birth 
certificate, something should be required in addition to just 
attesting that you are a citizen?
    Ms. Phillips. I think that it's good policy. Certainly what 
we have now is not working, and maybe that means that we couple 
the opportunity to show proof along with giving state officials 
the opportunity to verify citizenship.
    Mr. Roy. And by not working, I assume you mean in relation 
to proving cases of voter fraud, whether it is 1 or 1,000 or 
10,000, whatever the percentage may be. We can talk about the 
numbers, have a hearing on the numbers. But I assume that is 
what you mean is that it is not working based on that?
    You go ahead, and then all my time is up.
    Ms. Phillips. That's part of it, but specifically with the 
citizenship check. The check box yes and no, yes or no is not 
working.
    Mr. Roy. Could you--well, could you expand on that, and 
then my time is up?
    Thank you.
    Ms. Phillips. Sure, sure. So right now on the form, there's 
a simple check box, and then in the signature box, it also says 
``I affirm.'' And what we've found is that there have been 
instances where somebody has checked, no, I'm not a citizen, 
and they have still been registered to vote. Or they've not 
checked anything, and they've still been registered to vote.
    Mr. Roy. Thank you.
    Ms. Ocasio-Cortez. Thank you. The gentleman's time has 
expired.
    The chair now recognizes the distinguished gentlelady from 
New York, Mrs. Maloney.
    Mrs. Maloney. Well, I thank you for recognizing me, and I 
really find a lot of the testimony today very alarming. And I 
particularly find purging voters from files without any notice 
or followup really depriving American citizens of their right 
to vote.
    My colleague from the great state of New York, Ms. Ocasio-
Cortez, just testified that over 225,000 New Yorkers in the 
great borough of Brooklyn were purged in a recent election and 
that she tried to vote and was not allowed to vote. And this is 
very troubling that people--I would say that many of our 
ancestors gave their lives for us to have the right to vote.
    And for some technicality that they have moved the voting 
place or purged you or not even told you about it, and then 
taking your right to vote away from you is really against a 
basic American Value. So I really would like to ask Mr. Ho, who 
is representing the ACLU, some questions about what we can do 
about this.
    Now the same-day registration appears to be one 
alternative. If you go to vote in your voting place and they 
have moved it, and you can't vote, it seems like you should be 
able to register to vote and be able to vote that same day. So 
I would like to ask you, Mr. Ho, can you speak about the 
importance of Election Day registration as a countermeasure to 
reports of voter suppression that we are hearing across our 
country?
    Mr. Ho. Thank you for that question, Congressman Maloney--
Congresswoman Maloney, excuse me.
    It's a crucial safety net. If people have been removed from 
the rolls erroneously, Election Day registration permits them 
to get back on the rolls on Election Day. And you know, to be 
clear, there may have been some reason, you know, 20, 30, 40 
years ago to have 20, 30 days of a cutoff between the end of 
registration and the election. Back then, people were 
registering to vote on pen and paper. You know, you had to send 
them somewhere and then compile them by hand. Maybe we were 
still using IBM punch card machines to tally votes.
    But today, in today's online, electronic, on-demand world, 
there's really no reason why we can't verify voters' 
eligibility in real time, the way that most Americans expect 
their transactions to take place these days. And the proof is 
in the pudding. The states that have Election Day registration 
see turnout that's three to nine percentage points higher than 
the states that don't.
    Mrs. Maloney. Well, H.R. 1 is part of the first bills that 
we passed. It had many reforms in it. One of which was same-day 
voting. And it appears that many people could benefit from it. 
Can you give me examples of some people who would benefit from 
same-day voting?
    I have also heard complaints in my office that they have 
gone to vote, and for some reason, there is a problem with 
their address or address change or some other technicality. And 
I don't think anyone should be deprived of the right to vote 
because of a technicality. Could you give me some more examples 
of people that should be allowed to vote, but there is voter 
purging, or they are moving from one place to the other, or all 
the machines are broken?
    That is outrageous that all the machines are broken. Now if 
you can deprive someone of the right to vote, to win an 
election, all you have to do is go in and break every machine 
in the district and have your voting machine work. I mean, this 
is outrageous. I don't think anyone should be deprived of the 
right to vote because a machine is broken.
    Could you give other examples that we could understand?
    Mr. Ho. Sure. In addition to people who have been purged 
erroneously, there are people from demographics that move more 
frequently, and maybe their address doesn't get updated. 
Election Day registration would allow those people who are 
undoubtedly eligible to vote. No one disputes that. But do the 
simple thing of updating their address on the rolls on Election 
Day. You think of the demographics that are more likely to be 
affected by this. Low-income voters tend to move more 
frequently. Young voters tend to move more frequently.
    Mrs. Maloney. How does same-day voting affect voter 
turnout?
    Mr. Ho. The states that have it see turnout that's much 
higher than the states that don't, on average. It's been in 
existence in some states for over a few decades, and study 
after study has shown that states that have Election Day 
registration have significantly higher turnout, particularly 
with low-income voters, voters of color----
    Mrs. Maloney. Are you aware, Mr. Ho, of any instances of 
voter fraud that came out of same-day election voting?
    Mr. Ho. I'm not. And I don't think anyone has suggested 
ever that, say, Wyoming or Iowa or, you know, Hawaii have more 
voter fraud than states that are similar to those states, but 
don't have Election Day registration. In fact, Election Day 
registration is more secure than traditional registration 
because it's done in person. It requires documents to verify a 
person's residence and identity, and there are often other 
safeguards in place as well to enhance the security of EDR 
systems.
    Mr. Raskin.
    [Presiding] Thank you, Mr. Ho.
    The gentlelady's time has expired. I come now to----
    Mrs. Maloney. May I submit for further questions? Because 
this is--we need to do something about this, Mr. Chairman. 
Thank you for having this hearing.
    Mr. Raskin. You bet. You bet. We will pursue it.
    The gentleman from Kentucky, Mr. Massie?
    Oh, then Mr. Jordan.
    Mr. Jordan. Ohio was before Kentucky.
    Mr. Raskin. Okay. All right.
    Mr. Jordan. I am kidding. Thanks, Mr. Chairman.
    Mr. Raskin. Mr. Jordan, you are recognized for five 
minutes.
    Mr. Jordan. Let me start with maybe the whole panel. Ms. 
Perez, we will start with you. Should 16-year-olds be able to 
vote?
    Ms. Perez. We've not taken a position on that.
    Mr. Jordan. That is why I am asking you.
    Ms. Perez. Yes. The Brennan Center has not taken a position 
on that.
    Mr. Jordan. What do you think?
    Ms. Perez. I think it should be studied. I think there's 
certainly an excitement among young people and that there are 
at a time where we have a number of people who are eligible to 
vote, but not participating. It's really exciting to bring 
people into the process.
    Mr. Jordan. Sixteen-year-olds?
    Ms. Perez. Right.
    Mr. Jordan. Wow. Okay. Ms. Chapman?
    Ms. Chapman. The Leadership Conference has not taken a 
position on 16-year-old voting.
    Mr. Jordan. Okay. ACLU?
    Mr. Ho. We haven't. We have taken a position on 
preregistration for 16-and 17-year-olds so that they can fill 
out a form at that age, and then they'll automatically----
    Mr. Jordan. That is all part of this--that is all part of 
the AVR. It would be you just start earlier, right?
    Mr. Ho. Well, I think, you know, a lot of people, they 
register to vote at the DMV, and a lot of people get their 
license when they're 16. But they don't go back for a number of 
years until that license has expired. So letting 16--year-olds, 
when they get their license, submit a form and then 
automatically become registered when they're 18 we think makes 
a lot of sense.
    Mr. Jordan. Yes. Ms. Phillips?
    Ms. Phillips. In my opinion, no.
    Mr. Jordan. Okay. What about the--and this may have been 
asked earlier--public financing of campaigns?
    Ms. Perez. The Brennan Center supports certain public 
financing campaigns. We were behind--we were in support of the 
measures in H.R. 1.
    Mr. Jordan. Ms. Chapman?
    Ms. Chapman. The Leadership Conference also supported 
measures in H.R. 1 that included those provisions.
    Mr. Jordan. And is the ACLU there as well?
    Mr. Ho. I don't think we have a position on public 
financing.
    Mr. Jordan. Okay. Ms. Phillips?
    Ms. Phillips. Again, in my opinion, no.
    Mr. Jordan. Yes, same here. What about non--let us go to 
the one they--Ms. Perez, what about noncitizens voting? Have 
you already--maybe you already talked about this when I had to 
step out, but----
    Ms. Perez. We certainly did cover it. I think our view is a 
very strong one that only those folks who are eligible to vote 
should be registering and voting, and right now, there are no 
laws that allow noncitizens to vote in Federal elections. There 
are certainly some states and localities that have made 
different decisions.
    Mr. Jordan. If you are going to do Election Day 
registration, how do you safeguard? Because some states don't 
have photo ID, how do you safeguard making sure just citizens 
are voting if you are letting people walk in the day of 
election and say ``I want to vote.'' What do you do?
    Ms. Perez. There is a number of measures. One, you can have 
an attestation requirement where people need to understand what 
the eligibility rules are and then affirm that. There are 
also----
    Mr. Jordan. In your vision for Election Day registration, 
do you want them to prove, individuals to prove they are a 
citizen and resident of that state when they walk in to 
register the day, actual day of the vote?
    Ms. Perez. Respectfully, sir, they have. The attest to it 
is under penalty of perjury. They can be prosecuted if they're 
false for it. They have. In a trial, in anything that would be 
viewed as proof. You have someone attesting to it under law.
    I think where the dispute is over is whether or not they 
should provide additional supplementary proof via documentation 
that some people don't have, and we would be opposed to that.
    Mr. Jordan. So let me just--I am just thinking practically. 
In rural Ohio, in Ohio, the way we do it is you come in to 
vote, whether you are voting early or whether you are voting 
the day of the election, and you have to show a photo ID. You 
have to do a signature that match, a signature match. And then 
you get your ballot.
    You are saying that same kind of thing would happen on 
Election Day registration, that that is how it should work?
    Ms. Perez. I'm saying that states have chosen different 
methods. There are--and I want to make sure that Dale gets this 
because this is an area that he is focusing on. But what 
happens is that some states will use the same method that they 
have for elections. In some instances, they will have 
heightened measures on Election Day, a heightened 
identification.
    What we do know is that early--that Election Day 
registration works. It brings people into the elections. The 
folks that have it are very excited about it, and there are not 
widespread claims of fraud.
    Mr. Jordan. Okay. How about this whole opt-in--opt-in 
versus----
    Ms. Perez. Opt-out.
    Mr. Jordan [continuing]. opt-out. So the way it worked now, 
the burden--if someone didn't want to be registered to vote, 
they would have to--they are going to automatically be opt-in 
for every single person. And you would look at this as, I 
guess, based on H.R. 1 when they are 16 years of age?
    Ms. Perez. Just to clarify, sir, the current system in most 
places that you have to affirmatively say please register me to 
vote.
    Mr. Jordan. Right.
    Ms. Perez. The way automatic voter registration presumes it 
is that you would flip the presumption and basically say 
something----
    Mr. Jordan. No, I get that.
    Ms. Perez [continuing]. to akin of we would register you to 
vote unless you decline. So everybody has the opportunity to 
decline. Everybody is aware of the eligibility requirement.
    Mr. Jordan. The opportunity to decline prior to?
    Ms. Perez. There are different models. There are different 
models. In most of the states that have automatic voter 
registration, the opportunity to decline, should you choose to, 
is at the agency. There are a handful of states that do it 
through a postcard mailing later. For example, Oregon does 
that. Alaska does that.
    But most of the states allow you to opt out at the----
    Mr. Jordan. How many states do it now? I am just curious.
    Ms. Perez. Fifteen, plus the District of Columbia.
    Mr. Jordan. Okay. I am out of time.
    Thank you.
    Ms. Ocasio-Cortez.
    [Presiding] The chair now recognizes the gentlelady from 
Washington, DC, Ms. Norton.
    Ms. Norton. Thank you very much.
    I really appreciate that Mr. Raskin is holding this hearing 
and hold this hearing so early in session because I think that 
indicates the importance we attach to the right to vote itself. 
Of course, I represent the Nation's capital, which is the 
ultimate example of disenfranchisement in our country. The 
people I represent are No. 1 per capita in taxes paid to 
support the U.S. Government.
    I do have the vote in this committee. I chair committees, 
but I have no final vote on the House floor. Thanks to the 
Democrats after a court decision some years ago, I do have the 
right to vote on the House floor in the committee of the whole. 
But you can imagine what citizens who pay the highest taxes in 
the United States feel about not having the same rights as 
their fellow citizens.
    My question goes to enforcement. We have learned that the 
Civil Rights Division has filed exactly zero lawsuits to 
prevent voting discrimination based on Section 2 of the Voting 
Rights Act. Mr. Ho, is that your understanding?
    Mr. Ho. That is my understanding as well.
    Ms. Norton. Do you know of any other administration that 
has completely failed to bring such suits, Section 2 suits?
    Mr. Ho. I'm not aware of another administration that has 
failed to bring a single lawsuit under Section 2 of the Voting 
Rights Act.
    Ms. Norton. The information I have is that the Obama 
Administration brought five suits under Section 2. The Bush 
Administration, 15. The Clinton Administration, 16. This is 
very irregular. You would think that there was no more voting 
discrimination.
    Mr. Ho, do you believe that the prevalence of voting--of 
voter suppression has worsened since this administration took 
power? Is there evidence to that effect?
    Mr. Ho. It's hard to say, actually, because we really 
started to see a spike in activity, I'd say, prior to the 2012 
election. In between the 2008 and 2012 Presidential elections, 
there was a lot of voter suppression activity.
    Ms. Norton. What do you think accounted for that?
    Mr. Ho. Well, I do think it's--you know, it's hard not to 
look at what happened in the 2008 election. We had the most 
diverse electorate in our Nation's history. We elected our 
Nation's first African-American President. We had young people 
turning out at a higher rate than they had in over a decade.
    And for the first time in a generation, we saw a wave of 
laws designed to make registration for voting harder, and they 
disproportionately hit precisely those demographics that turned 
out in record numbers in 2008. So when you're in our line of 
work, it's hard to look at that and not think that that's not 
anything but a direct reaction to the diversification of this 
country and this electorate.
    Ms. Norton. Now if you look at the Justice Department's 
website, you see that there are only four lawsuits. And 
remember, no Section 2 lawsuits to enforce the Voting Rights 
Act, but four lawsuits of any kind have been filed to enforce 
the voting rights statute.
    Now I am looking at their website, does that seem about 
right to any of you, or Mr. Ho?
    Mr. Ho. I haven't looked it recently, but that's consistent 
with my recollection, though.
    Ms. Norton. How concerned should we be about that number?
    Mr. Ho. Well, I think, you know, since 1965 voters have 
relied upon the Department of Justice to vindicate their 
rights. The private bar does what we can, but we lack the 
resources of the United States Department of Justice, I think, 
quote obviously. It's meant a lot more work for us and I think 
a lot more unmet needs in this time.
    Ms. Norton. Could I ask any of you, is there anything you 
think the Congress could do, given what appears to be the 
reluctance of the administration to enforce any part of the 
Voting Rights Act? Is there anything we should be doing?
    Ms. Perez. I would say H.R. 1. I think H.R. 1 contains many 
of the best thinking solutions to the problems that have been 
vexing elections and administrations for quite a number of 
years, and it reflects a movement and a strong statement that 
in this country, it doesn't matter if you are rich or poor, 
black or white. If you are an eligible American, we want to 
bring you into the democracy, and we expect you to have an 
equal and fair opportunity to be voting.
    Ms. Norton. Thank you, Mr. Chairman. And I should say the 
H.R. 1 also contains H.R. 51, the D.C. voting rights of the 
D.C. statehood Act. And I appreciate that every Member of this 
subcommittee is a cosponsor of H.R. 51.
    Thank you, Mr. Chairman.
    Mr. Raskin.
    [Presiding] Thank you very much, Ms. Norton.
    And yes, indeed, I am a proud cosponsor of that, and we 
come now to the gentleman from Kentucky, Mr. Massie.
    Mr. Massie. Thank you, Mr. Chairman.
    I want to give you all or as many of you as I can a chance 
to answer this, but could you summarize some of the 
requirements, the identification requirements, the things that 
seem reasonable at first, but then tend to disenfranchise 
voters when they register or try to vote? Could you give me a 
brief summary of what some of those things are?
    Ms. Perez. I'd be delighted. And of course, it's a very 
state-specific inquiry because different----
    Mr. Massie. Correct.
    Ms. Perez [continuing]. communities in the state will 
have----
    Mr. Massie. Some of these are proposed maybe, and some of 
them are in place already in states.
    Ms. Perez. Well, but also the communities are different.
    Mr. Massie. Right.
    Ms. Perez. And they will have different needs and different 
access. But one of the things that make us provide further 
study and inquiry is whether or not it's a very limited list of 
identification, whether or not it has to be government issued 
and who that government can be.
    It is whether or not there is an alternative for folks who 
are eligible, but are--that don't have that kind of 
identification and how accessible is that alternative. And the 
other measure is what other measures are in place? Is this a 
redundant barrier?
    Some of the challenges that we are seeing with these laws 
is that at every step in the process, there is a barrier that 
is hard for some people to overcome. And when you have these 
duplicative----
    Mr. Massie. What type of barriers?
    Ms. Perez. So let's take a situation in a state that has a 
restriction on a voter registration group, right? You have 
people that are not eligible to vote. I'm sorry. You have 
people that are not voting. A community wants to go in and 
register them, but can't because they can get hit with fines if 
they don't do everything perfect. Or they have to go through 
some training by some petty bureaucrat.
    So you have one barrier to getting on the ballot that way.
    Mr. Massie. Training, you would be opposed to having some 
kind of training?
    Ms. Perez. No, but the--I think there's training, but then 
there's a requirement for training that is onerous and 
inaccessible, like some of the things that are concerning folks 
in Tennessee, like some of the things that were underlying some 
of the concerns we had in the Florida case that Dale mentioned 
earlier.
    Mr. Massie. Let me give Dale a chance to answer. I am 
sorry, Mr. Ho and Ms. Chapman. Mr. Ho?
    Mr. Ho. Sure. So I think an example of a law that might 
sound harmless to some people, but when it operates in practice 
is quite devastating for voter registration is one that I 
mentioned in my opening remarks, a law that Kansas had that 
required people to show a birth certificate or a passport when 
registering to vote in order to establish that they're United 
States citizens.
    Don't take it from me. Take it from the United States Court 
of Appeals for the Tenth Circuit, which in a unanimous opinion 
in 2016 by Judge Jerome Holmes, who was appointed by President 
George W. Bush, found that the law had caused a mass denial of 
a fundamental constitutional right. The court's words, not 
mine.
    Mr. Massie. Mass denial of a fundamental constitutional 
right.
    Mr. Ho. Correct.
    Mr. Massie. Ms. Chapman, could you give me an example?
    Ms. Chapman. Sure. I wanted to talk from personal 
experience, having been a voting rights advocate on the ground 
in the states. I worked in Wisconsin, along with----
    Mr. Massie. Can you do it in about 30 seconds?
    Ms. Chapman. Sure. I actually met a woman who was 90 years 
old. She was born in Mississippi at home to a midwife, and she 
did not have the ability to get a voter ID that was required by 
the state because she never had a birth certificate. And her 
daughter actually had to spend over $2,000 in legal fees in 
order for her to obtain those types of documents.
    She had been a poll worker her entire life. She never 
missed an election.
    Mr. Massie. I have got a minute and 20 seconds left. So 
thank you very much.
    Ms. Chapman. Yes, sure.
    Mr. Massie. So would you say that these disproportionately 
disenfranchise minorities?
    Ms. Chapman. Yes. Disproportionately disenfranchise people 
of color.
    Mr. Massie. What about you, Ms. Perez?
    Ms. Perez. I would say that people that have--yes, because 
people that are more on the margins, that have lives that are 
more complicated, that are unable to overcome these barriers, 
which because of poverty in other systems are likely to fall 
more in minority groups.
    Mr. Massie. Okay. Let me tell you something and ask you a 
question. Everything you have given me is a requirement to 
purchase a gun. So all of the requirements that you say 
disenfranchise minorities from--give them mass denial of a 
fundamental constitutional right are in place in many states, 
in some states to purchase a gun or to carry a gun, how would 
it not also disenfranchise minorities to have these 
requirements to purchase or carry a firearm?
    Ms. Perez?
    Ms. Perez. I'm sorry. I'm not understanding the question. 
Do you mind repeating?
    Mr. Massie. All of the requirements that you say to vote 
that disenfranchise disproportionately minorities are 
requirements in one state or another to purchase or carry a 
firearm. How does that not disenfranchise people of their 
Second Amendment constitutional right as well? Or wouldn't you 
agree with me that it does?
    Ms. Perez. I think this is not the kind of setting or time 
to be able to discuss this. I mean----
    Mr. Massie. All right. I appreciate you helping me to make 
my point. I would like to submit two documents to the record, 
for the record. I ask unanimous consent.
    The first one is ``Presentation to Presidential Advisory 
Commission on Election Integrity: A Suggestion and Some 
Evidence'' by John R. Lott Jr., 
CrimePreventionResearchCenter.org.
    And then another one is a Chicago Tribune article by the 
same author, John R. Lott, ``Commentary: Apply Background 
Checks for Gun Purchases to Voting.'' In other words, this is a 
document about what would happen if we used the NICS background 
check, which does check on whether you are an illegal 
immigrant, nonimmigrant, visa, or has renounced citizenship, 
which has been highly lauded by Democrats as a way to vet 
people to exercise their constitutional right.
    Mr. Raskin. Yes, indeed.
    Mr. Massie. I submit those to the record.
    Mr. Raskin. Without any objection, and I look forward to 
reading those.
    Mr. Raskin. And I take it from the gentleman's questioning 
that you agree with the witnesses, at least these three 
witnesses that these are unlawfully burdensome restrictions 
that are being imposed on the right to vote?
    Mr. Massie. I agree that they are the same restriction on 
the Second Amendment as they are on the right to vote. Which in 
the Second Amendment is a constitutional right which is 
enumerated in the Constitution.
    Thank you, Mr. Chairman.
    Mr. Raskin. Right. All right. Okay. This will be fun for us 
to pursue this question.
    We come now to Congresswoman Wasserman Schultz from the 23d 
District of Florida.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    I am not really sure what point that previous exchange was 
attempting to prove, but constitutional rights for guns are for 
another committee's jurisdiction, not this one.
    That having been said, Ms. Chapman, it is good to see you. 
I wanted to ask you if you support making Election Day a 
Federal holiday. There is legislation that our colleague 
Congresswoman Anna Eshoo has introduced called the Election Day 
Holiday Act of 2019, and I wanted to see if you support that 
legislation, if you believe it would increase voter turnout and 
participation?
    Ms. Chapman. Yes. So the Leadership Conference supports 
making Election Day a Federal holiday. We believe it will 
create more opportunities for people to vote, working people, 
people who might not be able to take time off, who might have 
childcare or transportation hurdles. We definitely support 
that, and we support any reform that would expand the 
franchise.
    Ms. Wasserman Schultz. Great. Absentee voting is really a 
necessary option for so many Americans today, especially 
because we want to make sure we can provide that access to as 
many people as possible. But you know, representing the state 
of Florida, especially for older and disabled voters, as well 
as brave service members who are stationed overseas, allow 
those Floridians as well.
    It can be a gateway to the ballot box, but we also have 
work to do to make it a reliable option for voters. Many 
jurisdictions require voters to pay postage, for example, 
before returning their ballots or, worse, do not clearly 
indicate whether postage is required.
    Voting should be free, period. When it costs the voter 
money to cast or return their ballot, whether it is paying a 
fee for ID or paying for postage to mail their ballot, it is 
tantamount to a poll tax.
    And so I am proud that my county, my home county, Broward 
County, covers the cost of all postage for absentee ballot 
returns, as well as, obviously, the cost of it being mailed to 
the voter. And I think this needs to be a universal practice.
    So, Ms. Chapman, do you support requiring localities to 
provide absentee ballots with prepaid postage, and are you 
aware of how--of the impact that prepaying postage has on 
absentee ballot returns and turnout?
    Ms. Chapman. Yes. I definitely support the prepaid postage. 
I actually worked as an advocate on the ground in the Florida 
and saw how, you know, there are a lot of times ballots can be 
very extensive because of the amendments on the ballot, and 
postage can also be very expense. So I believe that, you know, 
elections should be free, fair, and accessible, that we should 
not place additional costs on voters.
    I don't have statistics on exactly what that looks like 
around the country, but I believe to the extent possible that 
voters should not have to bear those costs.
    Ms. Wasserman Schultz. Okay. And I will ask you the other 
two questions in succession rapidly----
    Ms. Chapman. Okay.
    Ms. Wasserman Schultz.--so you can just answer them and 
take us home for the rest of my time. Signature verification. 
In the 2018 election in Florida in particular, I am concerned 
that our flawed signature verification system in our state 
chipped away at the fundamental right to vote.
    We have had numerous articles that described minorities and 
young voters suffering discrimination because they had a higher 
likelihood of signature rejection. Technological changes, 
including the frequency of touchpad signatures, the use of 
that, the fact that cursive writing is really no longer taught 
in many schools, that makes signatures less reliable for a 
quick verification of a person's identity, and we know that 
signatures change as people age, become ill, fall out of 
practice, or are simply in a rush.
    In fact, businesses like Target and Walmart have stopped 
using signatures entirely to verify transactions from the four 
largest credit card networks. So my first question is because 
it is still the main way that they identify voters in Florida, 
either Ms. Chapman or Mr. Ho, what do you think about the 
signature verification requirement in Florida and other states? 
Is it time to abandon that requirement? Is there an improved 
verification process that would be better?
    And then also deadline for submission of absentee ballots. 
There is not a uniform deadline for submission of absentee 
ballots. In fact, in Florida, you have to have your ballot, 
absentee ballot turned in a full 24 hours before the Election 
Day even commences. And so, I mean, we want to make sure, I 
think, that we can have every vote counted, and there doesn't 
appear to me to be a rush to ensure that the votes are received 
on Election Day, but are at least postmarked by Election Day.
    So should there be a uniform policy that allows voters to 
have their vote by mail ballots count as long as they are 
postmarked by Election Day and also drop-off policies that 
allow for drop-offs to be done at a polling site? Those are my 
questions.
    Mr. Ho. I can address the issue of the signature matches 
since the ACLU has done some litigation over that. I think, you 
know, we haven't taken the position that states should abandon 
signature matching altogether, but because of the reasons that 
you've identified what we think is critical is that if an 
elections worker flags someone for a perceived signature 
mismatch--and remember, elections workers, they're not like FBI 
trained handwriting analysts or something like that. They're 
eyeballing something, and people's signatures do change over 
time, and all the issues you identified.
    It's just important that voters receive notice and an 
opportunity to say, hey, you made a mistake. That's me. That's 
my ballot. Don't throw away my vote before--before doing so.
    And actually, what we've seen in a number of states is that 
no such opportunity or notice is given. Ballots are simply 
tossed----
    Ms. Wasserman Schultz. Yes.
    Mr. Ho [continuing]. based on a perceived signature 
mismatch. And we think that's a really key problem that needs 
to be addressed.
    Ms. Wasserman Schultz. And can Ms. Chapman answer the other 
half of my question?
    Mr. Raskin. Yes, please. The witness may answer the 
question.
    Ms. Chapman. Yes. We believe that every voter should have 
an opportunity to cast their ballot and have it counted. So 
that includes extending opportunities for absentee ballot, for 
voters to be able to turn in those absentee ballots.
    So I know states that have all mail voting. Like, for 
instance, Washington state, they have ample drop-off boxes. I 
think that's a best practice that--that we can adopt around the 
country so absentee ballots can be turned in closer to Election 
Day.
    Ms. Wasserman Schultz. Thank you. Thank you, Mr. Chairman.
    Mr. Raskin. Thank you very much.
    And we come now to the gentlelady from Massachusetts, Ms. 
Pressley.
    Ms. Pressley. Thank you, Mr. Chairman.
    The right to vote is one of the most fundamental rights we 
have as Americans. It is the most--this most basic right to 
vote belongs to all Americans. It belongs to the person who 
fell ill to the crack cocaine and opioid crisis, who instead of 
compassion was sent to prison, only to return home unable to 
fully participate in our society.
    It belongs to the incarcerated mother who is primary 
caretaker of her daughter, who has been arbitrarily stripped of 
access to the ballot box and, therefore, has no say in her 
child's future.
    It belongs to the 18-year-old in prison for marijuana 
possession who was held 14 hours--warehoused 14 hours away from 
their family and a community that they grew up in, and a broken 
system counts that young man's body in the Census where he is 
in prison, and yet he does not have the right to vote.
    It belongs to the more than 6 million Americans who are 
caught in a criminal legal system that is fundamentally unjust, 
a system that disproportionately targets the addicted, the 
disabled, and the poor.
    According to a report by the Center for American Progress 
last year, more than half a million people are held in local 
jails across the country. These individuals have yet to be 
convicted of any crime, but remain in jail because they simply 
cannot afford bail.
    Ms. Perez, what types of barriers do people face while they 
are subject to pretrial detention?
    Ms. Perez. There are quite a number of barriers. Some of it 
is education, where the election officials do not understand 
that someone before they've been convicted and have been 
disenfranchised is entitled to an absentee ballot. Some of it 
is procedural in that others--that it is difficult for people 
to come in and provide them with absentee ballots.
    I think it is critically important that we remember that 
until a person is convicted, they maintain that right to vote 
in every state, and we, therefore, need to have measures that 
make sure that that right to vote is protected.
    Ms. Pressley. And could these policies be considered a form 
of voter suppression?
    Ms. Perez. Certainly. As could other measures that 
disenfranchise people as soon as they get out of prison. We 
live in a society where 34 states currently disenfranchise 
members of our community who are living and working because of 
some criminal conviction that they have in the past.
    Ms. Pressley. Well, before 2001, a prison sentence in 
Massachusetts didn't affect whether someone in Massachusetts 
could vote. So felony disenfranchisement is a recent phenomenon 
in the Commonwealth.
    Mr. Ho, what possible justification could there be to 
disenfranchise folks who are currently or formerly involved in 
the justice system?
    Mr. Ho. Well, I think that's a very good question because, 
normally, our criminal justice policies are aimed at reducing 
crime, right? Deterring, say, criminal activity. Well, I don't 
think stripping someone's right to vote does that. Or 
rehabilitation, for example, and I don't think stripping 
someone's right to vote promotes rehabilitation. In fact, study 
after study has apparently shown that former offenders who vote 
are less likely to recidivate in the future.
    Now it's difficult to know which way the causal arrow runs 
there. But if we're really interested in reintegrating people 
after offenses, right, there's nothing to fear from their votes 
and from giving people a stake in the society that they will 
eventually be returning to.
    Ms. Pressley. And in that one in 13 black Americans of 
voting age, or 2.2 million people, are disenfranchised 
nationally and are more than four times as likely to lose their 
voting rights than any other group, can you explain, Ms. 
Chapman, why disenfranchisement policies so overwhelmingly 
affect black Americans?
    Ms. Chapman. Yes. So disenfranchisement policies are really 
a product of Jim Crow, and they were intentionally put in place 
to make it harder for people of color to vote. And I just 
wanted to say that, you know, voting is a national symbol of 
equality and full citizenship, and no one's right to vote 
should ever be taken away. And that's the Leadership Conference 
position.
    Ms. Pressley. Thank you. I yield the balance of my time to 
Mr. Ho, specifically if you could speak to the point that was 
made earlier on the Second Amendment.
    Mr. Ho. Oh, sure. I'd be happy to do that. So the reason 
why the documentary proof of citizenship law that I've been 
referring to in Kansas, the birth certificate or passport 
requirement. One of the reasons why it was so pernicious is 
those things aren't free.
    Passports cost, you know, close to $100. A birth 
certificate can cost as much as $20 or $40, depending upon the 
state that you're from. And you know, we don't believe that 
anyone should have to pay a cent in order to vote.
    Now to own a gun, it's a slightly different story. You 
typically, unless someone is gifting it to you, have to buy a 
gun. No one sort of has a fundamental right to have one given 
to you. And so I think it's quite inapposite to compare the 
documentation requirements that someone might need in order to 
purchase a handgun to those that you ought to have to exercise 
the most fundamental right that we have, which is to vote.
    Mr. Raskin. All right. Well, I want to thank all of the 
witnesses for their excellent testimony--Ms. Phillips, Mr. Ho, 
Ms. Chapman, Ms. Perez. I want to thank my colleagues, and 
undoubtedly, we will have the opportunity to pursue these 
issues some more, as we do whatever we can to vindicate the 
right to vote.
    The meeting is adjourned.
    [Whereupon, at 4:31 p.m., the committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
